Appendix A-1

[J-100-2020]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
BAER, C.J., SAYLOR, TODD, DONOHUE,
DOUGHERTY, WECHT, MUNDY, JJ.
COMMONWEALTH OF
PENNSYLVANIA,
Appellee
v.
WILLIAM HENRY
COSBY JR.,
Appellant

:
:
:
:
:
:
:
:
:
:
:
:

No. 39 MAP 2020
Appeal from the Order of
Superior
Court at No. 3314 EDA
2018 dated
December 10, 2019
Affirming the
Judgment of Sentence
dated
September 25, 2018 of the
Montgomery Court of
Common
Pleas, Criminal Division,
at No. CP46-CR-3932-2016
ARGUED: December 1,
2020

OPINION
JUSTICE WECHT DECIDED: June 30, 2021
In 2005, Montgomery County District Attorney Bruce
Castor learned that Andrea Constand had reported that
William Cosby had sexually assaulted her in 2004 at his
Cheltenham residence. Along with his top deputy prosecutor

Appendix A-2

and

experienced

detectives,

District

Attorney

Castor

thoroughly investigated Constand’s claim. In evaluating the
likelihood of a successful prosecution of Cosby, the district
attorney foresaw difficulties with Constand’s credibility as a
witness based, in part, upon her decision not to file a
complaint promptly. D.A. Castor further determined that a
prosecution would be frustrated because there was no
corroborating forensic evidence and because testimony from
other

potential

claimants

against

Cosby

likely

was

inadmissible under governing laws of evidence. The collective
weight of these considerations led D.A. Castor to conclude
that, unless Cosby confessed, “there was insufficient credible
and admissible
[J-100-2020] – 2
evidence upon which any charge against Mr. Cosby related to
the Constand incident could be proven beyond a reasonable
doubt.” 1 Seeking “some measure of justice” for Constand, D.A.

1

Notes of Testimony (“N.T.”), Habeas Corpus Hearing, 2/2/2016, at 60.

Appendix A-3

Castor decided that the Commonwealth would decline to
prosecute Cosby for the incident involving Constand, thereby
allowing Cosby to be forced to testify in a subsequent civil
action, under penalty of perjury, without the benefit of his
Fifth Amendment privilege against self-incrimination. 2
Unable to invoke any right not to testify in the civil
proceedings, Cosby relied upon the district attorney’s
declination and proceeded to provide four sworn depositions.
During those depositions, Cosby made several incriminating
statements. D.A. Castor’s successors did not feel bound by his
decision and decided to prosecute Cosby notwithstanding
that prior undertaking. The fruits of Cosby’s reliance upon
D.A. Castor’s decision - Cosby’s sworn inculpatory testimonywere then used by D.A. Castor’s successors against Cosby at
Cosby’s criminal trial. We granted allowance of appeal to
determine whether D.A. Castor’s decision not to prosecute

2

Id. at 63

Appendix A-4

Cosby in exchange for his testimony must be enforced against
the Commonwealth. 3
I. Factual and Procedural History
In the fall of 2002, Constand, a Canadian-born former
professional basketball player, was employed as the Director
of Basketball Operations at Temple University. It was in this
capacity that Constand first met Cosby, who had close ties to,
and was heavily
[J-100-2020] - 3
involved with, the university. That fall, she, along with a few
other Temple administrators, showed Cosby around the
university’s then-recently renovated basketball facilities.
Over

the

course

of

several

telephone

conversations

concerning the renovations, Cosby and Constand developed a
personal relationship. Soon after this relationship began,
As we discuss in more detail below, at Cosby’s trial, the trial court
permitted the Commonwealth to call five witnesses who testified that
Cosby had engaged in similar sexually abusive patterns with each of
them. We granted allowance of appeal here as well to consider the
admissibility of that prior bad act evidence pursuant to Pa.R.E. 404(b).
However, because our decision on the Castor declination issue disposes of
this appeal, we do not address the Rule 404(b) claim.
3

Appendix A-5

Cosby invited Constand to his Cheltenham residence. When
Constand arrived, Cosby greeted her, escorted her to a room,
and left her alone to eat dinner and drink wine. Cosby later
returned, sat next to Constand on a couch, and placed his
hand on her thigh. Constand was not bothered by Cosby’s
advance, even though it was the first time that any physical
contact had occurred between the two. Shortly thereafter,
Constand left the residence.
As the personal nature of the relationship progressed,
Cosby eventually met Constand’s mother and sister, both of
whom attended one of Cosby’s comedy performances. Soon
thereafter, Cosby invited Constand to return to his home for
dinner. Constand arrived at the residence and again ate
alone, in the same room in which she had eaten during her
first visit. When Constand finished eating, Cosby approached
and sat next to her on the couch. At first, the two discussed
Constand’s desire to work as a sports broadcaster, but Cosby
soon attempted physical contact. Cosby reached over to
Constand and attempted to unbutton her pants. When she

Appendix A-6

leaned forward to prevent him from doing so, Cosby
immediately ceased his efforts. Constand believed that her
actions had communicated to Cosby clearly that she did not
want to engage in a physical relationship with him. She
expected that no further incidents like this one would occur.
Toward the end of 2003, Cosby invited Constand to meet at
the Foxwoods Casino in Connecticut. Constand accepted the
invitation and, once at the casino, dined with Cosby and a
casino employee, Tom Cantone. After dinner, Cantone
walked Constand to her hotel room. Cosby called Constand
and asked her to meet him for dessert in his
[J-100-2020] - 4
room. Constand agreed. When she arrived, she sat on the
edge of Cosby’s bed as the two discussed their customary
topics: Temple athletics and sports broadcasting. Cosby then
reclined on the bed next to Constand. Eventually, he drifted
off to sleep. After remaining in Cosby’s room for a few
minutes, Constand left and returned to her own room.
Constand interpreted Cosby’s actions as another sexual

Appendix A-7

overture. Notwithstanding these unwelcome advances,
Constand still regarded Cosby as a mentor, remained grateful
for his career advice and assistance, and did not feel
physically threatened or intimidated. 4
Eventually, Constand decided to leave her job at Temple and
return to Canada to work as a masseuse. In January 2004,
Constand went to Cosby’s Cheltenham residence to discuss
that decision. As on her previous visits to Cosby’s home,
Constand entered through the kitchen door. On this occasion,
however, Constand noticed that Cosby already had placed a
glass of water and a glass of wine on the kitchen table. While
she sat at the table with Cosby and discussed her future,
Constand initially chose not to sample the wine because she
had not yet eaten and did not want to consume alcohol on
an empty stomach. At Cosby’s insistence, however, Constand
began to drink. At one point, Constand rose to use the
restroom. When she returned, Cosby was standing next to the

4

N.T., Trial, 4/13/2018, at 53, 55.

Appendix A-8

kitchen table with three blue pills in his hand. He reached
out and offered the pills to Constand, telling her that the pills
were her “friends,” and that they would “help take the edge
off.” 5 Constand took the pills from Cosby and swallowed
them. The two then sat back down and resumed their
discussion of Constand’s planned departure from Temple.
Constand soon began experiencing double vision. Her mouth
became dry and she slurred her speech. Although Constand
could not immediately identify the source of
[J-100-2020] - 5
her sudden difficulties, she knew that something was wrong.
Cosby tried to reassure her. He told her that she had to relax.
When Constand attempted to stand up, she needed Cosby’s
assistance to steady herself. Cosby guided her to a sofa in
another room so that she could lie down. Constand felt weak
and was unable to talk. She started slipping out of
consciousness.

5

N.T., Trial, 4/13/2018, at 59-60.

Appendix A-9

Moments later, Constand came to suddenly, finding Cosby
sitting behind her on the sofa. She remained unable to move
or speak. With Constand physically incapable of stopping
Cosby or of telling him to stop, Cosby began fondling her
breasts and penetrating her vagina with his fingers. Cosby
then took Constand’s hand and used it to masturbate himself.
At some point, Constand lost consciousness.
When Constand eventually awakened on Cosby’s couch in the
early morning hours, she discovered that her pants were
unzipped and that her bra was raised and out of place.
Constand got up, adjusted her clothing, and prepared to leave
the residence. She found Cosby standing in a doorway,
wearing a robe and slippers. Cosby told Constand that there
was a muffin and a cup of tea on a table for her. She took a
sip of the tea, broke off a piece of the muffin, and left.
After the January 2004 incident, Constand and Cosby
continued to talk over the telephone about issues involving
Temple University athletics. In March of that year, Cosby
invited Constand to dinner at a Philadelphia restaurant. She

Appendix A-10

accepted the invitation in hopes of confronting Cosby about
the January episode, but the two did not discuss that matter
during dinner. Afterward, Cosby invited Constand to his
residence.
She agreed. Once there, Constand attempted to broach the
subject by asking Cosby to identify the pills that he had
provided to her. She then tried to ask him why he took
advantage of her when she was under the influence of those
pills. Cosby was evasive and would not respond directly.
Realizing that Cosby was not going to answer her
[J-100-2020] - 6
questions, Constand got up and left. She did not report to the
authorities what Cosby had done to her. A few months later,
Constand moved back to her native Canada. She spoke with
Cosby over the telephone, mostly about an upcoming Toronto
performance that he had scheduled. Cosby invited Constand
and her family to the show, which especially excited
Constand’s mother, who had attended two of Cosby’s other
performances and who brought a gift for Cosby to the show.

Appendix A-11

Constand kept the January 2004 incident to herself for nearly
a year, until one night in January 2005, when she bolted
awake crying and decided to call her mother for advice.
Initially, Constand’s mother could not talk because she was
en route to work, but she returned Constand’s call
immediately upon arrival. During the call, Constand told her
mother that Cosby had sexually assaulted her approximately
one year earlier. Together, the two decided that the best
course of action was to contact the Durham Regional Police
Department in Ontario, Canada, and to attempt to retain
legal counsel in the United States.
That night, Constand filed a police report with the Durham
Regional Police Department. Shortly thereafter, Constand
called Cosby, but he did not answer his phone. When Cosby
returned the call the next day, both Constand and her mother
were on the line. Constand brought up the January 2004
incident and asked Cosby to identify the three blue pills that
he had given to her that night. Cosby apologized vaguely. As
to the pills, Cosby feigned ignorance, promising Constand

Appendix A-12

that he would check the label on the prescription bottle from
which they came and relay that information to her.
Frustrated, Constand left the call, but her mother remained
on the line and continued to speak with Cosby. Cosby assured
Constand’s mother that he did not have sexual intercourse
with Constand while she was incapacitated. Neither
Constand nor her
[J-100-2020] – 7
mother informed Cosby that Constand had filed a police
report accusing him of sexual assault. Constand later
telephoned Cosby again and, unbeknownst to Cosby, recorded
the conversation with a tape recorder that she had purchased.
During this conversation, Cosby offered to continue assisting
Constand if she still desired to work in sports broadcasting.
He also indicated that he would pay for Constand to continue
her education. Cosby asked Constand to meet him in person
to discuss these matters further, and told her that he would
have someone contact her to set up the meeting. As with the

Appendix A-13

previous call, Cosby again refused to identify the pills that he
had provided to Constand on the night of the alleged assault.
Within days of filing the police report, Constand received two
telephone messages from people associated with Cosby. The
first message was from one of Cosby’s assistants, calling on
Cosby’s behalf to invite Constand and her mother to Cosby’s
upcoming performance in Miami, Florida. Constand called
the representative back and recorded the call. The
representative asked for certain details about Constand and
her mother so that he could book flights and hotel rooms for
them. Constand declined the offer and did not provide the
requested information. Constand then received a message
from one of Cosby’s attorneys, who stated that he was calling
to discuss the creation of a trust that Cosby wanted to set up
in order to provide financial assistance for Constand’s
education. Constand never returned the attorney’s call.
In the meantime, the Durham Regional Police Department
referred Constand’s police report to the Philadelphia Police
Department, which, in turn, referred it to the Cheltenham

Appendix A-14

Police Department in Montgomery County, where Cosby’s
residence was located. The case was assigned to Sergeant
Richard Schaeffer, who worked in tandem
[J-100-2020] – 8
with the Montgomery County Detective Bureau and the
Montgomery County District Attorney’s Office to investigate
Constand’s allegation. Sergeant Schaeffer first spoke with
Constand by telephone on January 19, 2005. According to
Sergeant Schaeffer, Constand seemed nervous throughout
this brief initial interview. Thereafter, Constand traveled
from Canada to Cheltenham to meet with the investigating
team in person. Because this was Constand’s first time
meeting with law enforcement personnel, she felt nervous
and uncomfortable while discussing with them the intimate
nature of her allegations.
On January 24, 2005, then-Montgomery County District
Attorney Bruce Castor issued a press release informing the
public that Cosby was under investigation for sexual assault.
Sergeant Schaeffer and other law enforcement officials

Appendix A-15

interviewed Cosby in New York City, utilizing a written
question and answer format. Cosby was accompanied by his
attorneys, Walter M. Phillips, Esquire, and John P. Schmitt,
Esquire. Cosby reported that Constand had come to his home
at least three times during their social and romantic
relationship. Cosby claimed that, on the night in question,
Constand came to his house complaining of an inability to
sleep. Cosby stated that he told Constand that, when he
travels, he takes Benadryl, an antihistamine, which
immediately makes him drowsy. According to Cosby, he then
handed Constand one-and-a-half Benadryl pills, but did not
tell her what they were. Cosby recalled that, once Constand
ingested the pills, they kissed and touched each other on the
couch. Cosby admitted that he touched Constand’s breasts
and vagina, but he insisted that she neither resisted nor told
him to stop. Additionally, Cosby told the investigators that he
never removed his clothing and that Constand did not touch
any part of his body under his clothes. Cosby denied having

Appendix A-16

sexual intercourse with Constand and disclaimed any intent
to do so that night. In fact, Cosby claimed that the two never
[J-100-2020] - 9
had sexual intercourse on any occasion. Cosby admitted that
he told Constand and her mother that he would write down
the name of the pills and provide them that information, but
he acknowledged that he never actually did so. After the
interview—and without being asked to do so—Cosby
provided the police with pills, which laboratory testing
confirmed to be Benadryl.
In February 2005, then-District Attorney Castor reviewed
Constand’s interviews and Cosby’s written answers in order
to assess the viability of a prosecution of Cosby. The fact that
Constand had failed to promptly file a complaint against
Cosby troubled the district attorney. In D.A. Castor’s view,
such a delay diminished the reliability of any recollections
and undermined the investigators’ efforts to collect forensic
evidence. Moreover, D.A. Castor identified a number of
inconsistences

in

Constand’s

various

statements

to

Appendix A-17

investigators. After Cosby provided his written answers,
police officers searched his Cheltenham residence and found
no evidence that, in their view, could be used to confirm or
corroborate Constand’s allegations. Following the search of
Cosby’s home, Constand was interviewed by police again.
D.A. Castor noted that there were inconsistences in that
interview, which further impaired Constand’s credibility in
his eyes.
He also learned that, before she contacted the police in
Canada,

Constand

had

contacted

civil

attorneys

in

Philadelphia, likely for the purpose of pursuing financial
compensation in a lawsuit against Cosby. Additionally,
according to D.A. Castor, Constand’s behavior in the year
since the alleged assault complicated any effort to secure a
conviction against Cosby. As evidenced by the number of
telephone calls that she recorded, Constand continued to
talk with Cosby on the phone, and she also continued to meet
with him in person after the incident. D.A. Castor found these
recurring interactions between a complainant and an alleged

Appendix A-18

perpetrator to be atypical. D.A. Castor also reasoned that the
recordings likely
[J-100-2020] - 10
were illegal and included discussions that could be
interpreted as attempts by Constand and her mother to get
Cosby to pay Constand so that she would not contact the
authorities. The totality of these circumstances ultimately led
D.A. Castor to conclude that “there was insufficient credible
and admissible evidence upon which any charge against []
Cosby related to the Constand incident could be proven
beyond a reasonable doubt.” N.T., 2/2/2016, at 60.
Having determined that a criminal trial likely could not be
won, D.A. Castor contemplated an alternative course of
action that could place Constand on a path to some form of
justice. He decided that a civil lawsuit for money damages
was her best option.
To aid Constand in that pursuit, “as the sovereign,” the
district attorney “decided that [his office] would not prosecute
[] Cosby,” believing that his decision ultimately “would then

Appendix A-19

set off the chain of events that [he] thought as a Minister of
Justice would gain some justice for Andrea Constand.” Id. at
63-64. By removing the threat of a criminal prosecution, D.A.
Castor reasoned, Cosby would no longer be able in a civil
lawsuit to invoke his Fifth Amendment privilege against selfincrimination for fear that his statements could later be used
against him by the Commonwealth. Mr. Castor would later
testify that this was his intent:
The Fifth Amendment to the United States Constitution
states that a person may not be compelled to give evidence
against themselves. So you can’t subpoena somebody and
make them testify that they did something illegal-or evidence
that would lead someone to conclude they did
something illegal-on the threat of if you don’t answer, you’ll
be subject to sanctions because you’re under subpoena. So the
way you remove that from a witness is-if you want to, and
what I did in this case-is I made the decision as the sovereign
that Mr. Cosby would not be prosecuted no matter what. As
a matter of law, that then made it so that he could not take
the Fifth Amendment ever as a matter of law. So I have heard
banter in the courtroom and in the press the term
“agreement,” but everybody has used the wrong word. I told
[Cosby’s attorney at the time, Walter] Phillips that I had
decided that, because of [J-100-2020] - 11
defects in the case, that the case could not be won and that I
was going to make a public statement that we were not going
to charge Mr. Cosby. I told him that I was making it as the
sovereign Commonwealth of Pennsylvania and, in my legal

Appendix A-20

opinion, that meant that Mr. Cosby would not be allowed to
take the Fifth Amendment in the subsequent civil suit that
Andrea Constand’s lawyers had told us they wanted to bring.
[Attorney] Phillips agreed with me that that is, in fact, the
law of Pennsylvania and of the United States and agreed that
if Cosby was subpoenaed, he would be required to testify.
But those two things were not connected one to the other. Mr.
Cosby was not getting prosecuted at all ever as far as I was
concerned. And my belief was that, as the Commonwealth
and the representative of the sovereign, that I had the power
to make such a statement and that, by doing so, as a matter
of law Mr. Cosby would be unable to assert the Fifth
Amendment in a civil deposition. [Attorney] Phillips, a lawyer
of vastly more experience even than me-and I had 20 years
on the job by that point-agreed with my legal assessment.
And he said that he would communicate that to the lawyers
who were representing Mr. Cosby in the pending civil suit.
Id. at 64-66. Recalling his thought process at the time, the
former district attorney further emphasized that it was
“absolutely” his intent to remove “for all time” the possibility
of prosecution, because “the ability to take the Fifth
Amendment is also for all time removed.” Id. at 67.
Consistent with his discussion with Attorney Phillips, D.A.
Castor issued another press release, this time informing the
public that he had decided not to prosecute Cosby. The press
release stated, in full: Montgomery County District Attorney
Bruce L. Castor, Jr. has announced that a joint investigation
by his office and the Cheltenham Township Police
Department into allegations against actor and comic Bill
Cosby is concluded. Cosby maintains a residence in
Cheltenham Township, Montgomery County. A 31 year old

Appendix A-21

female, a former employee of the Athletic Department of
Temple University complained to detectives that Cosby
touched her inappropriately during a visit to his home in
January of 2004. The woman reported the allegation to police
in her native Canada on January 13, 2005. [J-100-2020] - 12
Canadian authorities, in turn, referred the complaint to
Philadelphia Police. Philadelphia forwarded the complaint to
Cheltenham Police. The District Attorney’s Office became
involved at the request of the Cheltenham Chief of Police
John Norris. Everyone involved in this matter cooperated
with investigators including the complainant and Mr. Cosby.
The level of cooperation has helped the investigation proceed
smoothly and efficiently. The District Attorney commends all
parties for their assistance. The District Attorney has
reviewed the statements of the parties involved, those of all
witnesses who might have first hand knowledge of the alleged
incident including family, friends and co-workers of the
complainant, and professional acquaintances and employees
of Mr. Cosby. Detectives searched Mr. Cosby’s Cheltenham
home for potential evidence.
Investigators further provided District Attorney Castor with
phone records and other items that might have evidentiary
value. Lastly, the District Attorney reviewed statements from
other persons claiming that Mr. Cosby behaved
inappropriately with them on prior occasions. However, the
detectives could find no instance in Mr. Cosby’s past where
anyone complained to law enforcement of conduct, which
would constitute a criminal offense. After reviewing the
above and consulting with County and Cheltenham
detectives, the District Attorney finds insufficient, credible,
and admissible evidence exists upon which any charge
against Mr. Cosby could be sustained beyond a reasonable
doubt. In making this finding, the District Attorney has
analyzed the facts in relation to the elements of any
applicable offenses, including whether Mr. Cosby possessed
the requisite criminal intent. In addition, District Attorney
Castor applied the Rules of Evidence governing whether or

Appendix A-22

not evidence is admissible. Evidence may be inadmissible if
it is too remote in time to be considered legally relevant or if
it was illegally obtained pursuant to Pennsylvania law. After
this analysis, the District Attorney concludes that a
conviction under the circumstances of this case would be
unattainable. As such, District Attorney Castor declines
to authorize the filing of criminal charges in connection with
this matter. Because a civil action with a much lower
standard for proof is possible, the District Attorney renders
no opinion concerning the credibility of any party involved so
as to not contribute to the publicity and taint prospective
jurors. The District Attorney does not intend to expound
publicly on the details of his decision for fear that his opinions
and analysis might be given undue weight by jurors in any
contemplated civil action. District Attorney Castor cautions
all parties to this matter that he will reconsider this decision
should the need arise. Much exists in this investigation that
could be used (by others) to portray persons on both sides of
the issue in a less than flattering light. The District Attorney
encourages the parties to resolve their dispute from this point
forward with a minimum of rhetoric.
Press Release, 2/17/2005; N.T., 2/2/2016, Exh. D-4.
D.A. Castor did not communicate to Constand or her counsel
his decision to permanently forego prosecuting Cosby. In fact,
Constand did not learn of the decision until a reporter
appeared at one of her civil attorney’s offices later that
evening. With the resolution of her allegations removed from
the criminal courts, Constand turned to the civil realm. On
March 8, 2015, less than one month after the district

Appendix A-23

attorney’s press release, Constand filed a lawsuit against
Cosby in the United States District Court for the Eastern
District of Pennsylvania. 6
During discovery in that lawsuit, Cosby sat for four
depositions. Cosby’s attorney for the civil proceedings, John
Schmitt, had learned about the non-prosecution decision
from Cosby’s criminal counsel, Walter Phillips. From the
perspective of Cosby’s attorneys, the district attorney’s
decision legally deprived Cosby of any right or ability to
invoke the Fifth Amendment. Accordingly, not once during
the four depositions did Cosby invoke the Fifth Amendment
or even mention it. During one deposition, Attorney Schmitt
advised Cosby not to answer certain questions pertaining to
Constand, but he did not specifically invoke the Fifth
Amendment. 7 Nor did Cosby claim the protections of the Fifth

6

7

See Constand v. Cosby, Docket No. 2:05-cv-01099-ER.
Constand’s attorneys subsequently filed a motion to compel Cosby to

answer.

Appendix A-24

Amendment when asked about other alleged victims of his
sexual abuse, presumably because he believed that he no
longer retained that privilege. In fact, no one involved with
either side of the civil suit indicated on the record a belief that
Cosby could be prosecuted in the future. D.A. Castor’s
decision was not included in any written stipulations, nor was
it reduced to writing.
[J-100-2020] - 14
At deposition, Cosby testified that he developed a romantic
interest in Constand as soon as he met her, but did not reveal
his feelings. He acknowledged that he always initiated the inperson meetings and visits to his home. He also stated that
he engaged in consensual sexual activity with Constand on
three occasions, including the January 2004 incident.
Throughout the depositions, Cosby identified the pills that he
provided to Constand in 2004 as Benadryl. Cosby claimed to
know the effects of Benadryl well, as he frequently took two
of the pills to help himself fall asleep. Thus, when Constand
arrived at his house on the night in question stressed, tense,

Appendix A-25

and having difficulty sleeping, Cosby decided to give her three
half-pills of Benadryl to help her relax. According to Cosby,
Constand took the pills without asking what they were, and
he did not volunteer that information to her. Cosby explained
that, after fifteen or twenty minutes, he suggested that they
move from the kitchen to the living room, where Constand
met him after going to the restroom. Cosby testified that
Constand sat next to him on the couch and they began kissing
and touching each other. According to Cosby, they laid
together on the couch while he touched her breasts and
inserted his fingers into her vagina. Afterwards, Cosby told
her to try to get some sleep, and then he went upstairs to his
bedroom. He came back downstairs two hours later to find
Constand awake. He then escorted her to the kitchen where
they had a muffin and tea. Cosby was questioned about his
telephone conversations with Constand’s mother. Cosby
admitted that he told Constand and her mother that he would
write down the name of the pills that he gave her and then
send it to them, but that he failed to do so. He further

Appendix A-26

explained that he would not admit what the pills were over
the phone with Constand and her mother because he did not
want Constand’s mother to think that he was a perverted old
man who had drugged her daughter. He also noted that he
had suspected that the
[J-100-2020] - 15
phone calls were being recorded. Although he did not believe
that Constand was making these allegations in an attempt to
get money from him, Cosby explained that, after Constand
and her mother confronted him, he offered to pay for her
education and asked his attorney to commence discussions
regarding setting up a trust for that purpose. Cosby admitted
that it would be in his best interests if the public believed that
Constand had consented to the encounter, and that he
believed he would suffer financial consequences if the public
believed that he had drugged and assaulted her. Notably,
during his depositions, Cosby confessed that, in the past, he

Appendix A-27

had provided Quaaludes 8-not Benadryl-to other women with
whom he wanted to have sexual intercourse. Eventually,
Constand settled her civil suit with Cosby for $3.38 million. 9
Initially, the terms of the settlement and the records of the
case, including Cosby’s depositions, were sealed. However,
following a media request, the federal judge who presided
over the civil suit unsealed the records in 2015.
By that point, then-D.A. Castor had moved on from the
district attorney’s office and was serving as a Montgomery
County Commissioner. He was succeeded as district attorney
by his former first assistant, Risa Vetri Ferman, Esquire 10.
Despite her predecessor’s decision not to prosecute Cosby,
upon release of the civil records, District Attorney Ferman

Quaalude” is a brand name for methaqualone, a central nervous system
depressant that was a popular recreational drug from the 1960s through
the 1980s, until the federal government classified methaqualone as a
controlled substance.

8

Constand also received $20,000 from American Media, Inc., which was
a party to the lawsuit as a result of an interview that Cosby gave to the
National Enquirer about Constand’s allegations.
10
D.A Ferman, now Judge Ferman, was subsequently elected to a seat on
the Court of Common Pleas of Montgomery County.
9

Appendix A-28

reopened

the

criminal

investigation

of

Constand’s

allegations. Then[J-100-2020] - 16
First Assistant District Attorney Kevin R. Steele 11 was
present during the initial stages of the newly-revived
investigation and participated in early discussions with
Cosby’s new lawyers, Brian J. McMonagle, Esquire, and
Patrick J. O’Conner, Esquire. On September 23, 2015, upon
learning that D.A. Ferman had reopened the case, former . A.
Castor sent her an email, to which he attached his February
17, 2005 press release, stating the following:
Dear Risa,
I certainly know better than to believe what I read in the
newspaper, and I have witnessed first hand your legal
acumen. So you almost certainly know this already. I’m
writing to you just in case you might have forgotten what we
did with Cosby back in 2005. Attached is my opinion from
then. Once we decided that the chances of prevailing in a
criminal case were too remote to make an arrest, I concluded
that the best way to achieve justice was to create an
atmosphere where [Constand] would have the best chance
of prevailing in a civil suit against Cosby. With the agreement
of [Attorney] Phillips and [Constand’s] lawyers, I wrote the
attached as the ONLY comment I would make while the civil
Mr. Steele has since been elected District Attorney of Montgomery
County.
11

Appendix A-29

case was pending. Again, with the agreement of the defense
lawyer and [Constand’s] lawyers, I intentionally and
specifically bound the Commonwealth that there would be no
state prosecution of Cosby in order to remove from him the
ability to claim his Fifth Amendment protection against selfincrimination, thus forcing him to sit for a deposition under
oath. [Attorney Phillips] was speaking for Cosby’s side at the
time, but he was in contact with Cosby’s civil lawyers who did
not deal with me directly that I recall. I only discovered today
that [Attorney Phillips] had died. But those lawyers
representing [Constand] civilly, whose names I did not
remember until I saw them in recent media accounts, were
part of this agreement because they wanted to make Cosby
testify. I believed at the time that they thought making him
testify would solidify their civil case, but the only way to do
that was for us (the Commonwealth) to promise not to
prosecute him. So in effect, that is what I did. I never made
an important decision without discussing it with you during
your tenure as First Assistant.
Knowing the above, I can see no possibility that Cosby’s
deposition could be used in a state criminal case, because I
would have to testify as to what happened, and the deposition
would be subject to suppression. I cannot
[J-100-2020] - 17
believe any state judge would allow that deposition into
evidence, nor anything derived therefrom. In fact, that was
the specific intent of all parties involved including the
Commonwealth and the plaintiff’s lawyers. Knowing this,
unless you can make out a case without that deposition and
without anything the deposition led you to, I think Cosby
would have an action against the County and maybe even
against you personally. That is why I have publically
suggested looking for lies in the deposition as an alternative
now that we have learned of all these other victims we did not
know about at the time we had made the go, no-go decision
on arresting Cosby. I publically suggested that the DA in
California might try a common plan scheme or design case

Appendix A-30

using [Constand’s] case as part of the res gestae in their case.
Because I knew Montgomery County could not prosecute
Cosby for a sexual offense, if the deposition was needed to do
so. But I thought the DA in California might have a shot
because I would not have the power to bind another state’s
prosecutor. Some of this, of course, is my opinion and using
Cosby’s deposition in the CA case, might be a stretch, but one
thing is fact: the Commonwealth, defense, and civil plaintiff’s
lawyers were all in the agreement that the attached decision
from me stripped Cosby of this Fifth Amendment privilege
against self-incrimination, forcing him to be deposed. That
led to Cosby paying [Constand] a lot of money, a large
percentage of which went to her lawyers on a contingent fee
basis. In my opinion, those facts will render Cosby’s
deposition inadmissible in any prosecution in Montgomery
County for the incident that occurred in January 2004 in
Cheltenham Township. Bruce
N.T., 2/2/2016, Exh. D-5.
Replying by letter, D.A. Ferman asserted that, despite the
public press release, this was the first she had learned about
a binding understanding between the Commonwealth and
Cosby. She requested a copy of any written agreement not to
prosecute Cosby. D.A. Castor replied with the following
email:
The attached Press Release is the written determination that
we would not prosecute Cosby. That was what the lawyers for
[Constand] wanted and I agreed. The reason I agreed and the
plaintiff’s lawyers wanted it in writing is so that Cosby could
not take the 5th Amendment to avoid being deposed or

Appendix A-31

testifying. A sound strategy to employ. That meant to all
involved, including Cosby’s lawyer at the time, Mr. Phillips,
that what Cosby said in the civil litigation could not be used
against him in a criminal prosecution for the event we had
him under investigation for in early 2005. I signed the press
release for precisely this reason, at the request of
[Constand’s] counsel, and with the acquiescence of Cosby’s
counsel, with full and [J-100-2020] - 18
complete intent to bind the Commonwealth that anything
Cosby said in the civil case could not be used against him,
thereby forcing him to be deposed and perhaps testify in a
civil trial without him having the ability to “take the 5th.” I
decided to create the best possible environment for
[Constand] to prevail and be compensated. By signing my
name as District Attorney and issuing the attached, I was
“signing off” on the Commonwealth not being able to use
anything Cosby said in the civil case against him in a criminal
prosecution, because I was stating the Commonwealth will
not bring a case against Cosby for this incident based upon
then-available evidence in order to help [Constand] prevail in
her civil action. Evidently, that strategy worked. The
attached, which was on letterhead and signed by me as
District Attorney, the concept approved by [Constand’s]
lawyers was a “written declaration” from the Attorney for the
Commonwealth there would be no prosecution based on
anything Cosby said in the civil action. Naturally, if a
prosecution could be made out without using what Cosby
said, or anything derived from what Cosby said, I believed
then and continue to believe that a prosecution is not
precluded. Id., Exh. D-7.
Despite her predecessor’s concerns, D.A. Ferman and the
investigators pressed forward, reopening the criminal case
against Cosby. Members of the prosecutorial team traveled to

Appendix A-32

Canada and met with Constand, asking her to cooperate with
their efforts to prosecute Cosby, even though she had
specifically agreed not to do so as part of the civil settlement.
Investigators also began to identify, locate, and interview
other women that had claimed to have been assaulted by
Cosby. Nearly a decade after D.A. Castor’s public decision not
to prosecute Cosby, the Commonwealth charged Cosby with
three counts of aggravated indecent assault 12 stemming from
the January 2004 incident with Constand in Cosby’s
Cheltenham residence. On January 11, 2016, Cosby filed a
petition for a writ of habeas corpus 13
[J-100-2020] - 19

By this time, Mr. Steele had replaced Judge Ferman as District
Attorney. See 18 Pa.C.S. § 3125(a)(1), (a)(4), and (a)(5).

12

Cosby styled the petition as a “Petition for Writ of Habeas Corpus and
Motion to Disqualify the Montgomery County District Attorney’s Office.”
The trial court treated the omnibus motion as three separate motions: (1)
a motion to dismiss the charges based upon the alleged non-prosecution
agreement; (2) a motion to dismiss the charges based upon pre-arrest
delay; and (3) a motion to disqualify the Montgomery County District
Attorney’s Office.
[J-100-2020] - 20
13

Appendix A-33

seeking, inter alia, dismissal of the charges based upon the
former D.A. Castor’s purported promise—made in his
representative capacity on behalf of the Commonwealth—
that Cosby would not be prosecuted. The Commonwealth filed
a response to the motion, to which Cosby replied.
From February 2-3, 2016, the trial court conducted hearings
on Cosby’s habeas petition, which it ultimately denied. Later,
in its Pa.R.A.P. 1925(a) opinion, the trial court explained that
“the only conclusion that was apparent” from the record “was
that no agreement or promise not to prosecute ever existed,
only the exercise of prosecutorial discretion.” Tr. Ct. Op.
(“T.C.O.”), 5/14/2019, at 62. In support of this conclusion, the
trial court provided a lengthy summary of what it found to be
the pertinent facts developed at the habeas corpus hearing.
Because our analysis in this case focuses upon the trial
court’s interpretation of those testimonies, we reproduce that
court’s synopsis here: On January 24, 2005, then District
Attorney Bruce L. Castor, Jr., issued a signed press release
announcing an investigation into Ms. Constand’s allegations.
Mr. Castor testified that as the District Attorney in 2005, he
oversaw the investigation into Ms. Constand’s allegations.
Ms. Ferman supervised the investigation along with County

Appendix A-34

Detective Richard Peffall and Detective Richard Schaffer of
Cheltenham. Mr. Castor testified that “I assigned who I
thought were our best people to the case. And I took an active
role as District Attorney because I thought I owed it to
Canada to show that, in America, we will investigate
allegations against celebrities.” Mr. Castor testified that Ms.
Constand went to the Canadian police almost exactly one
year after the alleged assault and that the case was
ultimately referred to Montgomery County. The lack of a
prompt complaint was significant to Mr. Castor in terms of
Ms. Constand’s credibility and in terms of law enforcement’s
ability to collect physical evidence. He also placed
significance on the fact that Ms. Constand told the Canadian
authorities that she contacted a lawyer in Philadelphia prior
to speaking with them. He also reviewed s. Constand’s
statements to police. Mr. Castor felt that there were
inconsistences in her statements. Mr. Castor did not recall
press quotes attributed to him calling the case “weak” at a
2005 press conference. Likewise, he did not recall the specific
statement, “[i]n Pennsylvania we charged people for criminal
conduct. We don’t charge people with making a mistake or
doing something foolish;” however, he indicated that it is a
true statement. As part of the 2005 investigation, [Cosby]
gave a full statement to law enforcement and his
Pennsylvania and New York homes were searched. [Cosby]
was accompanied by counsel and did not invoke the Fifth
Amendment at any time during the statement. After
[Cosby’s] interview, Ms. Constand was interviewed a second
time. Mr. Castor never personally met with Ms. Constand.
Following that interview of Ms. Constand, Mr. Castor spoke
to [Cosby’s] attorney Walter M. Phillips, Jr. Mr. Phillips told
Mr. Castor that during the year between the assault and the
report, Ms. Constand had multiple phone contacts with
[Cosby]. Mr. Phillips was also concerned that Ms. Constand
had recorded phone calls with [Cosby]. Mr. Phillips told Mr.
Castor that if he obtained the phone records and the

Appendix A-35

recorded calls he would conclude that Ms. Constand and her
mother were attempting was to get money from [Cosby] so
they would not go to the police. While he did not necessarily
agree with the conclusions Mr. Phillips thought would be
drawn from the records, Mr. Castor directed the police to
obtain the records. Mr. Castor’s recollection was that there
was an “inordinate number of [phone] contacts” between
[Cosby] and Ms. Constand after the assault. He also
confirmed the existence of at least two “wire interceptions,”
which he did not believe would be admissible. As part of the
2005 investigation, allegations made by other women were
also investigated. Mr. Castor delegated that investigation to
Ms. Ferman. He testified that he determined that, in his
opinion, these allegations were unreliable. Following
approximately one month of investigation, Mr. Castor
concluded that “there was insufficient credible and
admissible evidenced upon which any charge against Mr.
Cosby related to the Constand incident could be proven
beyond a reasonable doubt.” He testified that he could either
leave the case open at that point or definitively close the case
to allow a civil case. He did not believe there was a chance
that the criminal case could get any better. He believed Ms.
Constand’s actions created a credibility issue that could not
be overcome.
***
Mr. Castor further indicated, “Mr. Phillips never agreed to
anything in exchange for Mr. Cosby not being prosecuted.”
Mr. Castor testified that he told Mr. Philips of his legal
assessment and then told Ms. Ferman of the analysis and
directed her to contact Constand’s attorneys. He testified that
she was to contact the attorneys to let them know that “Cosby
was not going to be prosecuted and that the purpose for that
was that I wanted to create [J-100-2020] - 21
the atmosphere or the legal conditions such that Mr. Cosby
would never be allowed to assert the Fifth Amendment in the
civil case.” He testified that she did not come back to him with
any objection from Ms. Constand’s attorneys and that any

Appendix A-36

objection from Ms. Constand’s attorneys would not have
mattered anyway. He later testified that he did not have any
specific recollection of discussing his legal analysis with Ms.
Ferman, but would be surprised if he did not. Mr. Castor
testified that he could not recall any other case where he
made this type of binding legal analysis in Montgomery
County. He testified that in a half dozen cases during his
tenure in the District Attorney’s office, someone would
attempt to assert the Fifth Amendment in a preexisting civil
case. The judge in that case would then call Mr. Castor to
determine if he intended to prosecute the person asserting
the privilege. He could confirm that he did not and the claim
of privilege would be denied. Mr. Castor was unable to name
a case in which this happened. After making his decision not
to prosecute, Mr. Castor personally issued a second, signed
press release on February 17, 2005. Mr. Castor testified that
he signed the press release at the request of Ms. Constand’s
attorneys in order to bind the Commonwealth so it “would be
evidence that they could show to a civil judge that Cosby is
not getting prosecuted.” The press release stated, “After
reviewing the above and consulting with County and
Cheltenham Detectives, the District Attorney finds
insufficient, credible and admissible evidence exists upon
which any charge against Mr. Cosby could be sustained
beyond a reasonable doubt.” Mr. Castor testified that this
language made it absolute that [Cosby] would never be
prosecuted, “[s]o I used the present tense, [exists], . . . So I’m
making it absolute. I said I found that there was no evidencethere was insufficient credible and admissible evidence in
existence upon which any charge against [Cosby] could be
sustained. And the use of ‘exists’ and ‘could’ I meant to be
absolute.” The press release specifically cautioned the parties
that the decision could be revisited, “District Attorney Castor
cautions all parties to this matter that he will reconsider this
decision should the need arise.” He testified that inclusion of
this sentence, warning that the decision could be revisited, in
the paragraph about a civil case and the use of the word

Appendix A-37

“this,” was intended to make clear that it applied to the civil
case and not to the prosecution. Mr. Castor testified that this
sentence was meant to advise the parties that if they
criticized his decision, he would contact the media and
explain that Ms. Constand’s actions damaged her credibility,
which would severely hamper her civil case. He testified that
once he was certain a prosecution was not viable “I operated
under the certainty that a civil suit was coming and set up
the dominoes to fall in such a way that Mr. Cosby would be
required to testify.” He included the language “much exists in
this investigation that could be used by others to portray
persons on both sides of the issue in a [J-100-2020] - 22
less than flattering light,” as a threat to Ms. Constand and
her attorneys should they attack his office. In a 2016
Philadelphia Inquirer article, in reference to this same
sentence, Castor stated, “I put in there that if any evidence
surfaced that was admissible I would revisit the issue. And
evidently, that is what the D.A. is doing.” He testified that he
remembered making that statement but that it referred to
the possibility of a prosecution based on other victims in
Montgomery County or perjury. He testified that the press
release was intended for three audiences, the media, the
greater legal community, and the litigants. He testified about
what meaning he hoped that each audience would glean from
the press release. He did not intend for any of the three
groups to understand the entirety of what he meant. The
media was to understand only that [Cosby] would not be
arrested. Lawyers would parse every word and understand
that he was saying there was enough evidence to arrest
[Cosby] but that Mr. Castor thought the evidence was not
credible or admissible. The third audience was the litigants,
and they were to understand that they did not want to
damage the civil case. He then stated that the litigants would
understand the entirety of the press release, the legal
community most of it and the press little of it. Mr. Castor
testified that in November of 2014 he was contacted by the
media as a result of a joke a comedian made about [Cosby].

Appendix A-38

Again, in the summer of 2015 after the civil depositions were
released, media approached Mr. Castor. He testified that he
told every reporter that he spoke to in this time frame that
the reason he had declined the charges was to strip Mr. Cosby
of his Fifth Amendment privilege. He testified that he did not
learn the investigation had been reopened until he read in the
paper that [Cosby] was arrested in December 2015, but there
was media speculation in September 2015 that an arrest
might be imminent. On September 23, 2015, apparently in
response to this media speculation,unprompted and
unsolicited, Mr. Castor sent an email to then District
Attorney Risa Vetri Ferman. His email indicated, in
pertinent part, I’m writing you just in case you might have
forgotten what we did with Cosby back in 2005. . . Once we
decided that the chances of prevailing in a criminal case were
too remote to make an arrest, I concluded that the best way
to achieve justice was to create an atmosphere where
[Constand] would have the best chance of prevailing in a civil
suit against Cosby. With the agreement of [Attorney Phillips]
and [Constand’s] lawyer, I wrote the attached [press release]
as the ONLY comment I would make while the civil case was
pending. Again, with the agreement of the defense lawyer
and [Constand’s] lawyers, I intentionally and specifically
bound the Commonwealth that there would be no state
prosecution of [J-100-2020] - 23
Cosby in order to remove from him the ability to claim his
Fifth Amendment protection against self-incrimination, thus
forcing him to sit for a deposition under oath. . . . But those
lawyers representing [Constand] civilly . . . were part of this
agreement because they wanted to make Cosby testify. I
believed at the time that they thought making him testify
would solidify their civil case, but the only way to do that was
for us (the Commonwealth) to promise not to prosecute him.
So in effect, that is what I did. I never made an important
decision without discussing it with you during your tenure as
First Assistant.
***

Appendix A-39

[B]ut one thing is fact. The Commonwealth, defense and civil
plaintiff’s lawyers were all in agreement that the attached
decision from me stripped Cosby of his Fifth Amendment
privilege against self-incrimination forcing him to be
deposed. He indicated in his email that he learned Mr.
Phillips had died on the date of his email. The email also
suggested that the deposition might be subject to
suppression. Ms. Ferman responded to Mr. Castor’s email by
letter of September 25, 2015, requesting a copy of the “written
declaration” indicating that [Cosby] would not be prosecuted.
In her letter, Ms. Ferman indicated that “[t]he first I heard of
such a binding agreement was your email sent this past
Wednesday. The first I heard of a written declaration
documenting the agreement not to prosecute was authored on
9/24/15 and published today by Margaret Gibbons of the
Intelligencer. . . . We have been in contact with counsel for
both Mr. Cosby and Ms. Constand and neither has provided
us with any information about such an agreement.” Mr.
Castor responded by email. His email indicated, The attached
Press Release is the written determination that we would not
prosecute Cosby. That was what the lawyers for the plaintiffs
wanted and I agreed. The reason I agreed and the plaintiff’s
wanted it in writing was so Cosby could not take the 5th
Amendment to avoid being deposed or testifying. . . . That
meant to all involved, including Cosby’s lawyer at the time,
Mr. Phillips, that what Cosby said in the civil litigation could
not be used against him in a criminal prosecution for the
event we had him under investigation for in early 2005. I
signed the press release for precisely this reason, at the
request of Plaintiff’s counsel, and with the acquiescence of
Cosby’s counsel, with full and complete intent to bind the
Commonwealth that anything Cosby said in [J-100-2020] - 24
the civil case could not be used against him, thereby forcing
him to be deposed and perhaps testify in a civil trial without
the ability to “take the 5th.” I decided to create the best
possible environment for the Plaintiff to prevail and be
compensated. By signing my name as District Attorney and

Appendix A-40

issuing the attached, I was “signing off” on the
Commonwealth not being able to use anything Cosby said in
the civil case against him in a criminal prosecution, because
I was stating the Commonwealth will not bring a case against
Cosby for the incident based on the then-available evidence
in order to help the Plaintiff prevail in her civil action . . .
[n]aturally, if a prosecution could be made out without using
what Cosby said, or anything derived from what Cosby said,
I believed then and continue to believe that a prosecution is
not precluded. Mr. Castor testified that he intended to confer
transactional immunity upon [Cosby] and that his power to
do so as the sovereign was derived from common law not from
the statutes of Pennsylvania. In his final email to Ms.
Ferman, Mr. Castor stated, “I never agreed we would not
prosecute Cosby.” As noted, Ms. Constand’s civil attorneys
also testified at the hearing. Dolores Troiani, Esq. testified
that during the 2005 investigation, she had no contact with
the District Attorney’s office and limited contact with the
Cheltenham Police Department. Bebe Kivitz, Esq. testified
that during the 2005 investigation she had limited contact
with then-First Assistant District Attorney Ferman. The
possibility of a civil suit was never discussed with anyone
from the Commonwealth or anyone representing [Cosby]
during the criminal investigation. At no time did anyone from
Cheltenham Police, or the District Attorney’s Office, convey
to Ms. Troiani, or Ms. Kivitz, that [Cosby] would never be
prosecuted. They learned that the criminal case was declined
from a reporter who came to Ms. Troiani’s office in the
evening of February 17, 2005 seeking comment about what
Bruce Castor had done. The reporter informed her that Mr.
Castor had issued a press release in which he declined
prosecution. Ms. Troiani had not receive any prior
notification of the decision not to prosecute. Ms. Constand
and her attorneys did not request a declaration from Mr.
Castor that [Cosby] would not be prosecuted. Ms. Troiani
testified that if [Cosby] attempted to invoke the Fifth
Amendment during his civil depositions they would have filed

Appendix A-41

a motion and he would have likely been precluded since he
had given a statement to police. If he was permitted to assert
a Fifth Amendment privilege, they would have been entitled
to an adverse inference jury instruction. Additionally, if
[Cosby] asserted the Fifth Amendment, Ms. Constand’s
version of the story would have been the only version for the
jury to consider. Ms. Constand and her counsel had no reason
to request immunity. At no time during the civil suit did Ms.
Troiani [J-100-2020] - 25
receive any information in discovery or from [Cosby’s]
attorneys indicating that [Cosby] could never be prosecuted.
Ms. Troiani testified that she understood the press release to
say that Mr. Castor was not prosecuting at that time but if
additional information arose, he would change his mind. She
did not take the language, “District Attorney Castor cautions
all parties to this matter that he will reconsider this decision
should the need arise,” to be a threat not to speak publicly.
She continued to speak to the press; Mr. Castor did not
retaliate. Ms. Troiani was present for [Cosby’s] depositions.
At no point during the depositions was there any mention of
an agreement or promise not to prosecute. In her experience,
such a promise would have been put on the record at the civil
depositions. She testified that during the four days of
depositions, [Cosby] was not cooperative and the depositions
were extremely contentious. Ms. Troiani had to file motions
to compel [Cosby’s] answers. [Cosby’s] refusal to answer
questions related to Ms. Constand’s allegations formed the
basis of a motion to compel. When Ms. Troiani attempted to
question [Cosby] about the allegations, [Cosby’s] attorneys
sought to have his statement to police read into the record in
lieu of cross examination. Ms. Troiani testified that one of the
initial provisions [Cosby] wanted in the civil settlement was
a release from criminal liability. [Cosby’s civil attorney
Patrick] O’Conner’s letter to Ms. Ferman does not dispute
this fact. [Cosby] and his attorneys also requested that Ms.
Troiani agree to destroy her file, she refused. Eventually, the
parties agreed on the language that Ms. Constand would not

Appendix A-42

initiate any criminal complaint. The first Ms. Troiani heard
of a promise not to prosecute was in 2015. The first Ms. Kivitz
learned of the purported promise was in a 2014 newspaper
article. John P. Schmitt, Esq., testified that he has
represented [Cosby] since 1983. In the early 1990s, he became
[Cosby’s] general counsel. In 2005, when he became aware of
the instant allegations, he retained criminal counsel, William
Phillips, Esq., on [Cosby’s] behalf. Mr. Phillips dealt directly
with the prosecutor’s office and would then discuss all
matters with Mr. Schmitt. [Cosby’s] January 2005 interview
took place at Mr. Schmitt’s office. Both Mr. Schmitt and Mr.
Phillips were present for the interview. Numerous questions
were asked the answers to which could lead to criminal
charges. At no time during his statement to police did [Cosby]
invoke the Fifth Amendment or refuse to answer questions.
Mr. Schmitt testified that he had interviewed [Cosby] prior to
his statement and was not concerned about his answers.
Within weeks of the interview, the District Attorney declined
to bring a prosecution. Mr. Schmitt testified that Mr. Phillips
told him that the decision was an irrevocable commitment
that District Attorney Castor was not going to prosecute
[Cosby]. He received a copy of the press release.
[J-100-2020] - 26
On March 8, 2005, Ms. Constand filed her civil suit and Mr.
Schmitt retained Patrick O’Conner, Esq., as civil counsel. Mr.
Schmitt participated in the civil case. [Cosby] sat for four
days of depositions. Mr. Schmitt testified that [Cosby] did not
invoke the Fifth Amendment in those depositions and that he
would not have let him sit for the depositions if he knew the
criminal case could be reopened. He testified that generally
he does try to get agreements on [Cosby’s] behalf in writing.
During this time period, Mr. Schmitt was involved in written
negotiations with the National Enquirer. He testified that he
relied on the press release, Mr. Castor’s word and Mr.
Phillips’ assurances that what Mr. Castor did was sufficient.
Mr. Schmitt did not personally speak to Mr. Castor or get the
assurance in writing. During the depositions, Mr. O’Conner

Appendix A-43

objected to numerous questions. At the time of the
depositions, Mr. Schmitt, through his negotiations with the
National Enquirer, learned that there were Jane Doe
witnesses making allegations against [Cosby]. [Cosby] did not
assert a Fifth Amendment privilege when asked about these
other women. Mr. Schmitt testified that he had not formed
an opinion as to whether Mr. Castor’s press release would
cover that testimony. Mr. Schmitt testified that during
negotiations of the settlement agreement there were
references to a criminal case. The settlement agreement
indicated that Ms. Constand would not initiate a criminal
case against Mr. Cosby. Mr. Schmitt did not come forward
when he learned the District Attorney’s office re-opened the
case in 2015.
T.C.O. at 47-61 (cleaned up).
Notably, when District Attorney Castor decided not to
prosecute Cosby, he “absolutely” intended to remove “for all
time” the possibility of prosecution, because “the ability to
take the Fifth Amendment is also for all time removed.” N.T.,
2/2/2016, at 67. The trial court sought clarification from Mr.
Castor about his statement in his second email to D.A.
Ferman that he still believed that a prosecution was
permissible as long as Cosby’s depositions were not used in
such proceedings. Former D.A. Castor explained to the court
that he meant that a prosecution may be available only if

Appendix A-44

other victims were discovered, with charges related only to
those victims, and without the use of Cosby’s depositions in
the Constand matter. Specifically, former D.A. Castor stated
that what he was “trying to convey to Mrs. Ferman [was that
his] binding of the Commonwealth not to prosecute Cosby
was not for any crime in Montgomery County for all time. It
was only
[J-100-2020] - 26
for the sexual assault crime in the Constand case.” N.T.,
2/2/2016, at 224-25. He continued, “[s]o if they had evidence
that some of these other women had been sexually assaulted
at Cosby’s home in Cheltenham, then I thought they could go
ahead with the prosecution of that other case with some other
victim, so long as they realized they could not use the
Constand deposition and anything derived therefrom.” Id.
As noted, the trial court denied the motion, finding that thenD.A. Castor never, in fact, reached an agreement with Cosby,
or even promised Cosby that the Commonwealth would not
prosecute him for assaulting Constand. T.C.O. at 62. Instead,

Appendix A-45

the trial court considered the interaction between the former
district attorney and Cosby to be an incomplete and
unauthorized contemplation of transactional immunity. The
trial court found no authority for the “proposition that a
prosecutor may unilaterally confer transactional immunity
through a declaration as the sovereign.” Id. Rather, the court
noted, such immunity can be conferred only upon strict
compliance with Pennsylvania’s immunity statute, which is
codified at 42 Pa.C.S. § 5947 14. Per the terms of the statute,

The immunity statute provides, in relevant part: (a) General rule.-Immunity orders shall be available under this section in all proceedings
before:
(1) Courts.
***
(b) Request and issuance.-- The Attorney General or a district attorney
may request an immunity order from any judge of a designated court, and
that judge shall issue such an order, when in the judgment of the Attorney
General or district attorney:
(1) the testimony or other information from a witness may be
necessary to the public interest; and
(2) a witness has refused or is likely to refuse to testify or provide other
information on the basis of his privilege against self incrimination.
[J-100-2020] - 28
permission from a court is a prerequisite to any offer of transactional
immunity. See id. § 5947(b) (“The Attorney General or a district attorney
may request an immunity order
from any judge of a designated court.”). Because D.A. Castor did not seek
such permission, and instead acted of his own volition, the trial court
concluded that any purported immunity offer was defective, and thus
invalid. Consequently, according to the trial court, the “press release,
signed or not, was legally insufficient to form the basis of an enforceable
14

Appendix A-46

[J-100-2020] - 29
As further support for the view that no agreement was
reached, nor any promise extended, the trial court noted that,
in his initial statement to police, which was voluntarily
provided and not under oath, Cosby did not invoke his Fifth

promise not to prosecute.” T.C.O. at 62. The trial court also found that
“Mr. Castor’s testimony about what he did and how he did it was equivocal
at best.” Id. at 63. The court deemed the former district attorney’s
characterization of his decision-making and intent to be inconsistent,
inasmuch as he testified at times that he intended transactional
immunity, while asserting at other times that he intended use and
derivative-use immunity. The trial court specifically credited Attorney
Troiani’s statements that she never requested that Cosby be provided
with immunity and that she did not specifically agree to any such offer.
(c) Order to testify.-- Whenever a witness refuses, on the basis of his
privilege against self-incrimination, to testify or provide other
information in a proceeding specified in subsection (a), and the person
presiding at such proceeding communicates to the witness an immunity
order, that witness may not refuse to testify based on his privilege against
self-incrimination.
(d) Limitation on use.-- No testimony or other information compelled
under an immunity order, or any information directly or indirectly
derived from such testimony or other information, may be used against a
witness in any criminal case, except that such information may be used:
(1) in a prosecution under 18 Pa.C.S. § 4902 (relating to perjury) or under
18 Pa.C.S. § 4903 (relating to false swearing);
(2) in a contempt proceeding for failure to comply with an immunity order;
or
(3) as evidence, where otherwise admissible, in any proceeding where the
witness is not a criminal defendant.
42 Pa.C.S. § 5947(a)-(d).

Appendix A-47

Amendment rights. Instead, Cosby presented a narrative of
a consensual sexual encounter with Constand, which he
asserted again later in his depositions. “Thus,” the trial court
explained, “there was nothing to indicate that [Cosby’s]
cooperation would cease if a civil case were filed.” Id. at 65.
Since Cosby previously had discussed the incident without
invoking his right to remain silent, the court found no reason
to believe that Cosby subsequently would do so in a civil case
so as to necessitate the remedy that the former district
attorney purported to provide in anticipation of that
litigation. The trial court further held that, even if there was
a purported grant of immunity, Cosby could not insist upon
its enforcement based upon the contractual theory of
promissory estoppel, because “any reliance on a press release
as a grant of immunity was unreasonable.” Id. Specifically,
the court noted that Cosby was represented at all times by a
competent team of attorneys, but none of them “obtained
[D.A.] Castor’s promise in writing or memorialized it in any
way.” Id. at 65-66. The failure to demand written

Appendix A-48

documentation was evidence that no promise not to prosecute
was ever extended. For these reasons, the trial court found no
legal basis to estop the Commonwealth from prosecuting
Cosby. Cosby filed a notice of appeal and a petition for review
with the Superior Court. In response to the filings, the
Superior Court temporarily stayed the proceedings below.
However, upon a motion by the Commonwealth, the Superior
Court quashed the appeal and lifted the stay. This Court
likewise rejected Cosby’s pre-trial efforts to appeal the
adverse rulings, denying his petition for allowance of appeal,
his petition for review, and his emergency petition for a stay
of the proceedings.
[J-100-2020] - 30
On May 24, 2016, following a preliminary hearing, all of
Cosby’s charges were held for trial. Thereafter, Cosby filed a
number of pretrial motions, including a petition for a writ of
habeas corpus, a motion to dismiss the charges on due process
grounds, and, most pertinent here, a “Motion to Suppress the
Contents of his Deposition Testimony and Any Evidence

Appendix A-49

Derived therefrom on the Basis that the District Attorney’s
Promise not to Prosecute Him Induced Him to Waive his Fifth
Amendment Right Against Self-Incrimination.” After holding
a hearing on the suppression motion, at which no new
testimony was taken, the trial court again concluded that
former District Attorney Castor’s testimony was equivocal,
credited the testimony of Constand’s attorneys, and found
that no promise or agreement not to prosecute existed.
Having

so

determined,

the

court

discerned

“no

[c]onstitutional barrier to the use of [Cosby’s] civil deposition
testimony” against him at trial, and it denied the suppression
motion. 15 Later, the Commonwealth would introduce portions
of Cosby’s deposition testimony against Cosby, including his
admissions to using Quaaludes during sexual encounters
with women in the past. On September 6, 2016, the
Commonwealth filed a “Motion to Introduce Evidence

15 T.C.O. at 72 (quoting Findings of Fact, Conclusions of Law and Order
Sur Defendant’s Motion to Suppress Evidence Pursuant to Pa.R.Crim.P.
581(I), 12/5/2016, at 5).
15

Appendix A-50

of Other Bad Acts of the Defendant,” which Cosby opposed by
written response. The Commonwealth sought to introduce
evidence and testimony from other women who alleged that
Cosby had sexually assaulted them, instances that could not
be prosecuted due to the lapse of applicable statutes of
limitations. On February 24, 2017, the trial court granted the
Commonwealth’s motion, but permitted only one of these
alleged past victims to testify at Cosby’s trial. On December
30, 2016, Cosby filed a motion seeking a change in venue or
venire. The trial court kept the case in Montgomery County,
but agreed that the jury should be
[J-100-2020] - 31
selected from a different county. Thus, Cosby’s jury was
selected from residents of Allegheny County, and trial
commenced. On June 17, 2017, after seven days of
deliberation, the jury announced that it could not reach a
unanimous verdict. The trial court dismissed the jury and
declared a mistrial.

Appendix A-51

Ahead of the second trial, the Commonwealth filed a motion
seeking to introduce the testimony of a number of additional
women who offered to testify about Cosby’s prior acts of
sexual abuse. Generally, the women averred that, in the
1980s, each had an encounter with Cosby that involved either
alcohol, drugs, or both, that each became intoxicated or
incapacitated after consuming those substances, and that
Cosby engaged in some type of unwanted sexual contact with
each of them while they were unable to resist. The dates of
the conduct that formed the basis of these allegations ranged
from 1982 to 1989, approximately fifteen to twenty-two years
before the incident involving Constand. Again, Cosby opposed
the motion. Following oral argument, and despite there being
no change in circumstances other than the first jury’s
inability to reach a unanimous verdict, the trial court granted
the Commonwealth’s motion in part, increasing the number
of prior bad acts witnesses allowed at trial from one to five.
The selection of the five witnesses from a pool of at least
nineteen women was left entirely to the Commonwealth. The

Appendix A-52

Commonwealth selected, and introduced testimony at
Cosby’s second trial from, the following women: Janice
Baker-Kinney. In 1982, Baker-Kinney worked at a Harrah’s
Casino in Reno, Nevada. During that year, a friend invited
her to a party that, unbeknownst to her, was being held at a
temporary residence used by Cosby in Reno. At the time,
Baker- Kinney was twenty-four years old; Cosby was fortyfive. When Baker-Kinney arrived at the residence, she
realized that there actually was no party, at least as she
understood
[J-100-2020] - 32
the term. Besides Cosby, Baker-Kinney and her friend were
the only people there. Cosby gave Baker-Kinney a beer and a
pill, which she believed may have been a Quaalude. A short
time later, Cosby gave her a second pill. She took both
voluntarily, after which she became dizzy and passed out.
When she awakened, she was on a couch in another room.
Her shirt was unbuttoned and her pants were unzipped.
Cosby approached and sat next to her. Cosby then leaned her

Appendix A-53

against his chest. He fondled her breasts and her vagina. Still
intoxicated, Baker-Kinney followed Cosby to an upstairs
bedroom. She had no memory of what happened after
entering the bedroom until the following morning, when she
woke up naked next to Cosby, who also was naked. Although
she could not remember for sure, Baker-Kinney believed that
they had had sex. She dressed and left. Janice Dickinson.
Also in 1982, Janice Dickinson met Cosby. She was
twentyseven years old. Dickinson was an aspiring model, and
Cosby contacted her modeling agency to arrange a meeting.
Supposedly, Cosby wanted to mentor Dickinson. Along with
her agent, Dickinson met with Cosby. Sometime later, while
she was on a modeling job, Cosby called her and offered to fly
her to Lake Tahoe. There, Dickinson met with Cosby’s
musical director and practiced her vocal skills. At dinner that
night, Cosby arrived and met with Dickinson, who was
drinking wine. Dickinson mentioned that she was suffering
from menstrual cramps. Cosby provided her with a pill to
help relieve the discomfort. The musical director eventually

Appendix A-54

left, and Cosby offered to discuss Dickinson’s career in his
hotel room. She agreed and accompanied him there. When
they got to the room, Cosby put on a robe and made a phone
call. Dickinson felt lightheaded and had trouble speaking.
Cosby got off the phone, climbed on top of Dickinson, and had
sexual intercourse with her. Dickinson stated that she was
unable to move and that she passed out soon after Cosby had
finished. When she woke up the next morning, she did not
[J-100-2020] - 33
recall how she had arrived at Cosby’s room. She was naked
from the waist down, had semen on her legs, and felt pain in
her anus. Heidi Thomas: In 1984, Heidi Thomas was
twenty-seven years old, and Cosby was forty-six. Thomas
wanted to be an actress and a model. Her agent told her that
Cosby was looking to mentor a promising young talent.
Eventually, Cosby invited Thomas to Reno for some personal
acting lessons. Thomas believed that she would be staying at
a hotel, but, when she got to Reno, a car took her to a ranch
house where Cosby was staying. Cosby arranged a room in

Appendix A-55

the house for her. When they were the only two people left in
the house, Cosby asked Thomas to audition for him by
pretending to be an intoxicated person, which she explained
to Cosby would be a challenge for her because she had never
been intoxicated. Cosby asked how she could play such a role
without ever having had that experience. So, he gave her
some wine. Thomas drank only a little of the wine before
becoming extremely intoxicated. She faded in and out of
consciousness. At one point she came to on a bed only to find
Cosby forcing his penis into her mouth. She passed out and
awoke later feeling sick. Chelan Lasha. Lasha met Cosby in
1986, while she was working as an actress and model. She
was only seventeen years old. Cosby was forty-eight. Cosby
called her at her home, and later visited her there. Lasha
then sent him modeling shots and spoke with him a number
of times on the phone about her career. Cosby invited her to
meet him in Las Vegas, where, he told her, someone would
take better pictures of her. He implied that she could get a
role on “The Cosby Show.” Enticed by the prospect, Lasha

Appendix A-56

went to Las Vegas. As promised, once there, someone took
pictures of her. Someone else gave her a massage. Eventually,
Lasha was alone with Cosby. He gave her a blue pill, which
he said was an antihistamine that would help with a cold
from which she was suffering. Cosby also provided her with a
shot of liquor. Because Lasha trusted Cosby,
[J-100-2020] - 34
she voluntarily consumed both the alcohol and the pill. Cosby
then gave her a second shot and led her to a couch. Lasha
began to feel intoxicated. Lasha was unable to move on her
own, and Cosby helped her to the bed. Cosby laid next to her,
pinched her breasts, and rubbed his genitals against her leg
until she felt something warm on her leg. Lasha woke up the
next day wearing only a robe. Maud Lise-Lotte Lublin.
When Cosby met Lublin in 1989, he was fifty-two years old,
and she was twenty-three. Lublin also was an aspiring model
and actress. Lublin’s agent informed her that Cosby wanted
to meet her. Soon after, Lublin met with Cosby, who told her
that he would refer her to a modeling agency in New York

Appendix A-57

City. Cosby then started to call her regularly. Lublin
considered Cosby to be a mentor and a father figure. Once,
Cosby invited her to his hotel, where they talked about
improvisation. Cosby poured her a shot of liquor and told her
to drink it. Not normally a drinker, Lublin initially declined
the shot. When Cosby insisted, she drank it. He poured her
another shot, and again strongly encouraged her to drink it.
Because she trusted him, Lublin drank the second shot as
well. She quickly felt dizzy and unstable, and was unable to
stand on her own. Cosby asked her to sit between his legs and
lean against his chest. He stroked her hair and talked, but
she could not hear his words. She could not move or get up.
She awoke two days later at her home, with no idea how she
got there. The trial court rejected Cosby’s arguments that the
introduction of testimonies from the five prior bad acts
witnesses violated his due process rights, and that the
incidents were too remote in time and too dissimilar to have
probative value, let alone probative value sufficient to
overcome the unduly prejudicial impact of such evidence. The

Appendix A-58

court noted that prior bad acts evidence generally cannot be
used to establish a criminal propensity or to prove that the
defendant acted in conformity with the past acts, but that
such evidence can be used to show motive, opportunity,
intent, preparation, plan,
[J-100-2020] - 35
knowledge, identity, or absence of mistake or accident, so long
as the probative value of the evidence outweighs its
prejudicial effect. 16 The court then determined that the
testimony of the five prior bad act witnesses-and the
deposition testimony pertaining to the prior use of
Quaaludes-was admissible to demonstrate Cosby’s common

T.C.O. 96-97 (citing Pa.R.E. 404(b)). Rule 404 provides, in relevant
part: (a) Character Evidence. (1) Prohibited Uses. Evidence of a person’s
character or character trait is not admissible to prove that on a particular
occasion the person acted in accordance with the character or trait.
***
(b) Crimes, Wrongs or Other Acts.
(1) Prohibited Uses. Evidence of a crime, wrong, or other act is not
admissible to prove a person’s character in order to show that on a
particular occasion the person acted in accordance with the character.
(2) Permitted Uses. This evidence may be admissible for another purpose,
such as proving motive, opportunity, intent, preparation, plan,
knowledge, identity, absence of mistake, or lack of accident. In a criminal
case this evidence is admissible only if the probative value of the evidence
outweighs its potential for unfair prejudice. Pa.R.E. 404(b)(1)-(2).
16

Appendix A-59

plan, scheme, or design. The trial court reasoned that the
similarity and distinctiveness of the crimes bore a logical
connection to Constand’s allegations, and amounted to a
“signature of the same perpetrator.” 17 Comparing the past
and present allegations, the court noted that each woman was
substantially younger than Cosby and physically fit; that
Cosby initiated the contact with each woman, primarily
though her employment; that each woman came to trust
Cosby and view him as a friend or mentor; that each woman
accepted an invitation to a place that Cosby controlled; that
each woman consumed a
[J-100-2020] - 36
drink or a pill, often at Cosby’s insistence; that each woman
became incapacitated and unable to consent to sexual
contact; and that Cosby sexually assaulted each woman while
each was under the influence of the intoxicant. Id. at 103-04.
These “chilling similarities,” the court explained, rendered

Id. at 97 (quoting Commonwealth v. Tyson, 119 A.3d 353, 358-59 (Pa.
Super. 2015) (en banc)).

17

Appendix A-60

Cosby’s actions “so distinctive as to become a signature,” and
therefore the evidence was admissible to demonstrate a
common plan, scheme, or design. Id. at 104. The court further
determined that the prior bad acts evidence was admissible
to demonstrate that Cosby’s actions were not the result of
mistake or accident. The court relied in large part upon thenChief Justice Saylor’s concurrence in Commonwealth v.
Hicks, 156 A.3d 1114 (Pa. 2017), which suggested the
“doctrine of chances” as another “theory of logical relevance
that does not depend on an impermissible inference of bad
character, and which is most greatly suited to disproof of
accident or mistake.” Id. at 1131 (Saylor, C.J., concurring).
The trial court reasoned that the purpose of the evidence was
not to demonstrate that Cosby behaved in conformity with a
criminal propensity, but rather to “establish the objective
improbability of so many accidents befalling the defendant or
the defendant becoming innocently enmeshed in suspicious
circumstances so frequently.” Id. at 1133 (Saylor, C.J.,
concurring). The court noted that there was no dispute that a

Appendix A-61

sexual encounter between Cosby and Constand had occurred;
the contested issue was Constand’s consent. The prior bad
acts evidence, therefore, was “relevant to show a lack of
mistake, namely, that [Cosby] could not have possibly
believed that [] Constand consented to the digital penetration
as well as his intent in administering an intoxicant.” T.C.O
at 108. Similarly, with regard to the “doctrine of chances,” the
court opined that the fact that nineteen women were
proffered as Rule 404(b) witnesses “lends [sic] to the
conclusion that [Cosby] found himself in this situation more
frequently than the general population.” Id. Accordingly, “the
fact that numerous other women recounted the
[J-100-2020] - 37
same or similar story, further supports the admissibility of
this evidence under the doctrine of chances.” Id. The trial
court recognized that the alleged assaults upon the prior bad
acts witnesses were remote in time, but it explained that
remoteness “is but one factor that the court should consider.”
Id. at 97. The court reasoned that the distance in time

Appendix A-62

between the prior acts and the incident involving Constand
was “inversely proportional to the similarity of the other
crimes or acts.” Id. (citing Tyson, 119 A.3d at 359). Stated
more simply, the “more similar the crimes, the less significant
the length of time that has passed.” Id. at 98 (citing
Commonwealth v. Luktisch, 680 A.2d 877 (Pa. Super. 1996)).
The court noted that, while there was a significant temporal
gap between the prior incidents and Constand’s case, the
alleged assaults involving the prior bad acts witnesses
occurred relatively close in time to each other. Thus, “[w]hen
taken together,” the court explained, “the sequential nature
of the acts coupled with their nearly identical similarities
renders the lapse of time unimportant.” Id. at 109. To be
unfairly prejudicial, the trial court emphasized, the proffered
evidence must be “unfair,” and must have a “tendency to
suggest decision on an improper basis or to divert the jury’s
attention away from its duty of weighing the evidence
impartially.” Id. At 100 (quoting Pa.R.E. 403 cmt). Evidence
“will not be prohibited merely because it is harmful to the

Appendix A-63

defendant,” and a court “is not required to sanitize the trial
to eliminate all unpleasant facts.” Id. at 100-01 (quoting
Commonwealth v. Conte, 198 A.3d 1169, 1180- 81 (Pa. Super.
2018)). For the trial court, the aforementioned similarities
between Constand’s claim and that of the other alleged
victims weighed in favor of admissibility, particularly
because the court believed that the Commonwealth had a
“substantial need” for the evidence. Id. at 109. “Where the
parties agreed that the digital penetration occurred, the
evidence of other acts was necessary to rebut [Cosby’s]
characterization of
[J-100-2020] - 38
the assault as a consensual encounter.” Id. “Furthermore,”
the court opined, “Ms. Constand did not report the assault
until approximately one year later, further supporting the
Commonwealth’s need for the evidence.” Id. at 110. With
regard to the prejudicial impact of the evidence, the court
suggested that it had sufficiently mitigated any potential
prejudice when it limited the number of witnesses who could

Appendix A-64

testify (at the second trial) to just five of the nineteen
witnesses that the Commonwealth requested. Id. The court
noted that it found all nineteen witness’ testimony to be
relevant and admissible, but limited the number to five so as
to mitigate the prejudice to Cosby. The court added that it
gave cautionary instructions on the permissible use of this
evidence, designed so as to limit its prejudicial impact. Id. at
110-11. Finally, the trial court rejected Cosby’s challenge to
the admissibility of the contents of his deposition testimony
to the extent that it concerned his use of Quaaludes in
decades past. The court opined that Cosby’s “own words about
his use and knowledge of drugs with a depressant effect was
relevant to show his intent and motive in giving a depressant
to - Constand.” Id. at 115. Because the evidence demonstrated
Cosby’s knowledge of the effects of drugs such as Quaaludes,
the court reasoned, Cosby “either knew [Constand] was
unconscious, or recklessly disregarded the risk that she could
be.” Id. As with the Rule 404(b) witnesses, the court found
that any prejudicial effect of this evidence was mitigated by

Appendix A-65

the court’s cautionary instructions. Id. Accordingly, the court
trial opined that all of the Rule 404(b) evidence was
admissible.
At the conclusion of a second jury trial, Cosby was convicted
on all three counts of aggravated indecent assault. Following
the denial of a number of post-trial motions, the trial court
deemed Cosby to be a “sexually violent predator” pursuant to
the then applicable version of the Sex Offender Registration
and Notification Act (“SORNA”), 42 Pa.C.S. §§ 9799.109799.41. The trial court then sentenced Cosby to three to ten
years
[J-100-2020] - 39
in prison. Cosby was denied bail pending an appeal. He filed
post-sentence motions seeking a new trial and a modification
of his sentence, which were denied. Cosby timely filed a notice
of appeal, prompting the trial court to order him to file a
concise statement of errors complained of on appeal pursuant
to Pa.R.A.P. 1925(b).

Appendix A-66

Cosby complied. On May 14, 2019, the trial court responded
to Cosby’s concise statement with its opinion, issued
pursuant to Pa.R.A.P. 1925(a). A unanimous panel of the
Superior Court affirmed the judgment of sentence in all
respects. Commonwealth v. Cosby, 224 A.3d 372 (Pa. Super.
2019). The Superior Court began by assessing Cosby’s
challenge to the admissibility of the prior bad acts evidence
under Rule 404(b). The panel observed that a reviewing court
must evaluate the admission of evidence pursuant to the
abuse-of-discretion standard. Id. at 397. Addressing the trial
court’s rationale regarding the admissibility of prior bad acts
evidence demonstrating a common plan, scheme, or design,
the panel noted that the exception aims to establish a
perpetrator’s identity based upon “his or her commission of
extraordinarily similar criminal acts on other occasions. The
exception is demanding in it[s] constraints, requiring nearly
unique factual circumstances in the commission of a crime, so
as to effectively eliminate the possibility that it could have
been committed by anyone other than the accused.” Id. at 398

Appendix A-67

(citing Commonwealth v. Miller, 664 A.2d 1310, 1318 (Pa.
1995)). Although the common plan, scheme, or design
rationale typically is used to establish the identity of a
perpetrator of a particular crime, the Superior Court pointed
out that courts previously have also used the exception “to
counter [an] anticipated defense of consent.” Id. (quoting
Tyson, 119 A.3d at 361). In Tyson, Jermeel Omar Tyson
brought food to his victim, who was feeling ill. Tyson, 119
A.3d at 356. While Tyson remained in the residence, the
victim fell asleep. When she awoke some time later, Tyson
was having vaginal intercourse with her. She
[J-100-2020] – 40
told Tyson to stop, and he complied. But, when she fell asleep
a second time, he resumed the uninvited sexual contact.
Tyson was arrested and charged with sex-related offenses. Id.
Before trial, the Commonwealth sought to introduce evidence
of a rape for which Tyson had been convicted in Delaware
twelve years earlier. Id. The Delaware offense involved a
victim of the same race and of a similar age as the victim in

Appendix A-68

Tyson. Id. The Delaware victim similarly was casually
acquainted with Tyson, invited Tyson into her home, was in
a compromised state, and awoke to find Tyson engaged in
vaginal intercourse with her. Id. at 357. The trial court
declined to admit the Rule 404(b) evidence against Tyson. Id.
at 356. On interlocutory appeal, the Superior Court reversed
the trial court’s decision, finding that the proffered evidence
was admissible. Id. at 363. The court reasoned that the
“relevant details and surrounding circumstances of each
incident further reveal criminal conduct that is sufficiently
distinctive to establish [that Tyson] engaged in a common
plan or scheme.” Id. at 360. 18 Notably, the Tyson Court found
the twelve-year gap between Tyson’s Delaware conviction
The en banc majority opinion in Tyson was authored by then-President
Judge Gantman and joined by then-Judge Mundy, President Judge
Emeritus Ford Elliott, and Judges Panella, Shogan, and Olson. ThenJudge Donohue dissented, joined by President Judge Emeritus Bender
and Judge Ott, opining that the majority “overemphasize[d] the few
similarities that exist between Tyson’s prior rape conviction and the
present matter while completely dismissing the several important
differences between the two incidents.” Tyson, 119 A.3d at 363 (Donohue,
J., dissenting). The dissent further disputed the en banc majority’s
reliance upon the need for the prior bad acts evidence “to bolster the
credibility of the Commonwealth’s only witness where there is no
indication that the witness is otherwise impeachable.” Id. at 364.
18

Appendix A-69

and the offense at issue to be “less important” when compared
to the strength of the similarities between the crimes. Id. at
361. With Tyson in mind, the Superior Court turned its
attention to the case sub judice. Based upon the similarities
between Constand’s allegations and those of Cosby’s other
accusers identified by the trial court, the Superior Court
agreed that the accounts of the
[J-100-2020] - 41
five prior bad acts witnesses established a “predictable
pattern” that reflected Cosby’s “unique sexual assault
playbook.” Cosby, 224 A.3d at 402. Accordingly, the panel
concluded that the witnesses’ testimony was admissible to
show Cosby’s common plan, scheme, or design.
The Superior Court further agreed with the trial court that
the prior bad acts evidence was admissible to demonstrate
the absence of mistake on Cosby’s part as to Constand’s
consent. The court concluded that Tyson’s rationale was
applicable to the instant case. The court rejected Cosby’s
efforts to distinguish Constand’s allegations from those

Appendix A-70

dating to the 1980s. Cosby emphasized the fact that the
relationship between Cosby and Constand lasted longer than
his relationship with any of the prior bad acts witnesses, that
Constand was a guest at Cosby’s home on multiple occasions,
that Cosby and Constand had exchanged gifts, that Cosby
had made prior sexual advances toward Constand, that the
nature of the sexual contact differed among the alleged
victims, and that the alleged prior assaults occurred in hotel
rooms or at the home of a third party, while the incident with
Constand occurred in Cosby’s home. Id. at 401-02. The
Superior Court dismissed these apparent dissimilarities as
unimportant, opining that “[i]t is impossible for two incidents
of sexual assault involving different victims to be identical in
all respects.” Id. at 402. The court added that it would be
“simply unreasonable” to require two incidents to be
absolutely identical in order to be admissible under Rule
404(b), and concluded that “[i]t is the pattern itself, and not
the mere presence of some inconsistencies between the
various assaults, that determines admissibility under these

Appendix A-71

exceptions.” Id. As to the temporal gap between the prior bad
acts and the incident involving Constand, the Superior Court
acknowledged that, even if the evidence were otherwise
admissible

under Rule

404(b),

it

“will

be

rendered

inadmissible if it is too remote.” Id. At 405 (quoting
Commonwealth v. Shively, 424 A.2d 1257, 1259 (Pa. 1981)).
The panel
[J-100-2020] - 42
agreed with the trial court’s statement that the significance
of the age of a prior bad act is “inversely proportional” to the
similarity between the prior bad act and the facts underlying
the charged offense. Id. (quoting Commonwealth v. Aikens,
990 A.2d 1181, 1185 (Pa. Super. 2010)). Although the panel
recognized the significant lag in time between the events in
question, it relied upon the similarities as found by the trial
court to conclude that “the at-issue time gap is relatively
inconsequential.” Id. “Moreover,” the panel opined, “because
[Cosby’s] identity in this case was not in dispute (as he
claimed he only engaged in consensual sexual contact with

Appendix A-72

[Constand]), there was no risk of misidentification” through
the admission of the prior bad acts evidence, “despite the gap
in time.” Id. Additionally, the Superior Court rejected Cosby’s
contention that the trial court had failed to weigh adequately
the prejudicial impact of the prior bad acts evidence. The
panel highlighted the fact that the trial court provided the
jury with cautionary instructions on the use of the evidence,
as well as that court’s decision to limit the number of prior
bad acts witnesses to five. These steps, in the Superior
Court’s view, were sufficient to mitigate the prejudicial
impact of the evidence. Id. The Superior Court dealt
separately with Cosby’s Rule 404(b) challenge to the use of
his

deposition

testimony

regarding

his

provision

of

Quaaludes to women in the past.
The court rejected Cosby’s “attempts to draw a hard
distinction between Quaaludes and Benadryl,” and noted
that “the jury was free to disbelieve [Cosby’s] assertion that
he only provided [Constand] with Benadryl.” Id. at 420. The

Appendix A-73

court credited the Commonwealth’s argument that Cosby’s
familiarity with Quaaludes was suggestive of his mens rea,
inasmuch as it was “highly probative of ‘the circumstances
known to him for purposes of determining whether he acted
with the requisite mens rea for the offense of aggravated
indecent

assault—recklessness.”

Id.

(quoting

Pa.R.E.

404(b)(2)). Moreover, Cosby’s “knowledge of the use of central
nervous system depressants, coupled with his likely past
[J-100-2020] - 43
use of the same with the [prior bad acts] witnesses, were
essential to resolving the otherwise he-said-she-said nature
of [Constand’s] allegations.” Id. The Superior Court added
that the trial court did not err in determining that the
probative value of this evidence outweighed its potential for
unfair prejudice, inasmuch as, “in a vacuum, Cosby’s use and
distribution of a then-legal ‘party drug’ nearly half a century
ago did not appear highly prejudicial,” and “only becomes
significantly prejudicial, and fairly so, when, in the context of
other evidence, it establishes Cosby’s knowledge of and

Appendix A-74

familiarity with central nervous system depressants for
purposes of demonstrating that he was at least reckless” in
giving Constand such a drug before having sexual contact
with her. Id. at 420-21 (emphasis in original) (cleaned up).
The court added that any potential for unfair prejudice was
mitigated

substantially

by

the

court’s

cautionary

instructions, and that, accordingly, there was no error in the
admission of this evidence. Id. at 421.Turning to Cosby’s
claims relating to the enforceability of the non-prosecution or
immunity decision rendered by then-District Attorney
Castor, the Superior Court viewed this as a challenge to the
denial of a motion to quash a criminal complaint, which
would be evaluated under an abuse-of-discretion standard.
Id. at 410. Like the trial court, the panel found no “authority
suggesting that a district attorney ‘may unilaterally confer
transactional immunity through a declaration as the
sovereign.’” Id. at 411 (quoting T.C.O. at 62). Therefore, the
court opined, “it is clear on the face of the record that the

Appendix A-75

trial court did not abuse its discretion in determining that
there was no enforceable nonprosecution agreement in this
case.” Id. The court added: “Even assuming Mr. Castor
promised not to prosecute [Cosby], only a court order can
convey such immunity. Such promises exist only as exercises
of prosecutorial discretion, and may be revoked at any time.”
Id. The court discussed the immunity statute and observed
that it provides that “a district attorney may request an
immunity order from any judge of a designated
[J-100-2020] - 44
court . . . .” Id. (quoting 42 Pa.C.S. § 5947(b)). Because no such
order existed here, the Superior Court concluded that it could
“ascertain no abuse of discretion in the trial court’s
determination

that

[Cosby]

was

not

immune

from

prosecution, because Mr. Castor failed to seek or obtain an
immunity order pursuant to Section 5947.” Id. at 412. “Only
a court order conveying such immunity is legally binding in
this Commonwealth.” Id. The Superior Court further rejected
Cosby’s invocation of promissory estoppel asserting reliance

Appendix A-76

upon D.A. Castor’s assurances, as demonstrated by Cosby’s
cooperation with Constand’s civil suit and his decision not to
invoke

the

Fifth

Amendment

during

his

deposition

testimony. The panel opined that Cosby failed to cite
sufficient authority to establish that a prosecution may be
barred under a promissory estoppel theory. The panel further
agreed with the trial court that, in any event, “it was not
reasonable for [Cosby] to rely on Mr. Castor’s promise, even
if the trial court had found credible the testimony provided by
Mr. Castor and [Cosby’s] civil attorney,” Attorney Schmitt.
Id. The panel stated: “We cannot deem reasonable [Cosby’s]
reliance on such a promise when he was represented by
counsel, especially when immunity can only be granted by a
court order, and where no court order granting him immunity
existed.” Id. At 413. The Superior Court further opined that
there was “virtually no evidence in the record that [Cosby]
actually declined to assert his Fifth Amendment rights at the
civil deposition based on Mr. Castor’s purported promise not
to prosecute.” Id. Although the court noted that Attorney

Appendix A-77

Schmitt was the only witness who could testify that Cosby
indeed relied upon Castor’s purported promise during his
deposition (Attorney Schmitt did so testify), it emphasized
the Commonwealth’s argument that Attorney Schmitt
allowed Cosby to give a statement to the police during the
initial investigation, that Cosby did not incriminate himself
at that point, that Attorney Schmitt further negotiated with
the
[J-100-2020] - 45
National Enquirer on the details of its published interview
with Cosby, and that Attorney Schmitt negotiated a term of
the settlement agreement with Constand that required her
assurance that she would not cooperate with any future
criminal investigation. Thus, the Commonwealth argued,
and the Superior Court agreed, that “[i]t was not necessary
for the trial court to specifically state that it rejected . . .
Schmitt’s testimony, as it is patently obvious that his
testimony belies his claim that there was some ‘promise’ from
[Mr.] Castor not to prosecute.” Id. (quoting Commonwealth’s

Appendix A-78

Superior Court Brief at 136-37). The Superior Court agreed
that “the evidence was entirely inconsistent with [Cosby’s]
alleged reliance on Mr. Castor’s promise in choosing not to
assert his Fifth Amendment privilege in the civil suit.” Id. at
413-14. For the same reasons, the Superior Court rejected
Cosby’s claim that the trial court erred in failing to suppress
his deposition testimony due to the immunity that he
purportedly should have enjoyed. The court opined that
Cosby’s suppression argument was “contingent upon his
claim that Mr. Castor unilaterally immunized [Cosby] from
criminal prosecution, which we have already rejected.” Id. at
414. The panel distinguished all of the precedents upon which
Cosby

relied,

including

this

Court’s

decision

in

Commonwealth v. Stipetich, 652 A.2d 1294 (Pa. 1995). In
Stipetich, Pittsburgh police personnel had promised George
and Heidi Stipetich that, if they answered questions about
the source of the drugs found in their home, no charges would
be filed against them. After the Stipetiches fulfilled their part
of the agreement, prosecutors charged them anyway. Id. at

Appendix A-79

1294-95. The trial court granted the Stipetiches’ motion to
dismiss the charges on the basis of the police promise. Id. At
1295. This Court ultimately held that the Pittsburgh police
department had no authority to bind the Allegheny County
District Attorney’s Office to a non-prosecution agreement.
Id. However, this Court opined:
[J-100-2020] - 46
The decisions below, barring prosecution of the Stipetiches,
embodied concern that allowing charges to be brought after
George Stipetich had performed his part of the agreement by
answering questions about sources of the contraband
discovered in his residence would be fundamentally unfair
because in answering the questions he may have disclosed
information that could be used against him. The proper
response to this concern is not to bar prosecution; rather, it is
to suppress, at the appropriate juncture, any detrimental
evidence procured through the inaccurate representation
that he would not be prosecuted.
Id. at 1296. Although the Superior Court dismissed this
passage from Stipetich as dicta, it found the situation
distinguishable in any event inasmuch as former D.A. Castor
testified that there was no “agreement” or “quid pro quo” with
Cosby, and, therefore, any reliance that Cosby placed upon

Appendix A-80

the district attorney’s promise was unreasonable. Cosby, 224
A.3d at 416-17.
The Superior Court concluded that it was bound by the trial
court’s factual findings and by its credibility determinations.
The trial court had “determined that Mr. Castor’s testimony
and, by implication, Attorney Schmitt’s testimony (which was
premised upon information he indirectly received from Mr.
Castor) were not credible.” Id. at 417. The panel added that
the trial court had “found that the weight of the evidence
supported its finding that no agreement or grant of immunity
was made, and that [Cosby] did not reasonably rely on any
overtures by Mr. Castor to that effect when he sat for his civil
deposition.” Id. Thus, the Superior Court discerned no error
in the trial court’s decision to allow the use of Cosby’s
deposition testimony against him at trial. 19

In addition to the Rule 404(b) and non-prosecutions claims, the Superior
Court rejected a number of other issues raised by Cosby, including an
assertion of improper juror bias, a challenge to an allegedly misleading
jury instruction, and a contention that SORNA was unconstitutional.
Cosby, 224 A.3d at 396, 421-431. Because those issues are not relevant to
the matters before us, we need not discuss them herein.
19

Appendix A-81

[J-100-2020] - 47
II. Issues:
On June 23, 2020, this Court granted Cosby’s petition for
allowance of appeal, limited to the following two issues:
(1) Where allegations of uncharged misconduct involving
sexual contact with five women (and a de facto sixth) and the
use of Quaaludes were admitted at trial through the women’s
live testimony and [Cosby’s] civil deposition testimony
despite: (a) being unduly remote in time in that the
allegations were more than fifteen years old and, in some
instances, dated back to the 1970s; (b) lacking any striking
similarities or close factual nexus to the conduct for which
[Cosby] was on trial; (c) being unduly prejudicial; (d) being
not actually probative of the crimes for which [Cosby] was on
trial; and (e) constituting nothing but improper propensity
evidence, did the Panel err in affirming the admission of this
evidence?
(2) Where: (a) [District Attorney Castor] agreed that [Cosby]
would not be prosecuted in order to force [Cosby’s] testimony
at a deposition in [Constand’s] civil action; (b) [the district
attorney] issued a formal public statement reflecting that
agreement; and (c) [Cosby] reasonably relied upon those oral
and written statements by providing deposition testimony in
the civil action, thus forfeiting his constitutional right
against self-incrimination, did the Panel err in affirming the
trial court’s decision to allow not only the prosecution of
[Cosby] but the admission of [Cosby’s] civil deposition
testimony?
Commonwealth v. Cosby, 236 A.3d 1045 (Pa. 2020) (per
curiam). 20

In his petition, Cosby also sought this Court’s review of his claim of
improper juror bias and his challenge to the constitutionality of SORNA.
We denied allocatur as to those two claims.

20

Appendix A-82

III. Analysis
We begin with Cosby’s second listed issue, because, if he is
correct that the Commonwealth was precluded from
prosecuting him, then the question of whether the prior bad
act testimony satisfied Rule 404(b) will become moot. On
February 17, 2005, then-District Attorney Castor announced
to

the

public,

on

behalf

of

the

Commonwealth

of

Pennsylvania, that he would not prosecute Cosby for any
offense related to the 2004 sexual abuse that Constand
alleged. Constand’s potential
[J-100-2020] - 48
credibility issues, and the absence of direct or corroborative
proof by which to substantiate her claim, led the district
attorney to believe that the case presented “insufficient,
credible, and admissible evidence upon which any charge
could be sustained beyond a reasonable doubt.” Press
Release, 2/17/2005 (cleaned up). Given his “conclu[sion] that
a conviction under the circumstances of this case would be
unattainable,” D.A. Castor “decline[d] to authorize the filing

Appendix A-83

of criminal charges in connection with this matter.” Id. In
light of the non-prosecution decision, Cosby no longer was
exposed to criminal liability relating to the Constand
allegations and thus could no longer invoke his Fifth
Amendment privilege against compulsory self-incrimination
in that regard. With no legal mechanism available to avoid
testifying in Constand’s civil suit, Cosby sat for depositions
and, therein, made a number of statements incriminating
himself. D.A. Castor’s declination decision stood fast
throughout his tenure in office. When he moved on, however,
is successor decided to revive the investigation and to
prosecute Cosby. Ruling upon Cosby’s challenge to this
belated prosecution, the trial court concluded that the former
district attorney’s promise did not constitute a binding,
enforceable

agreement.

To

determine

whether

Cosby

permanently was shielded from prosecution by D.A. Castor’s
2005 declination decision, we first must ascertain the legal
relationship between D.A. Castor and Cosby. We begin with
the trial court’s findings. It is hornbook law that reviewing

Appendix A-84

courts

are

not

fact-finding

bodies.

O’Rourke

v.

Commonwealth, 778 A.2d 1194, 1199 (Pa. 2001). Appellate
courts are limited to determining “whether there is evidence
in the record to justify the trial court’s findings.” Id. at 1199
n.6. “If so, this Court is bound by them.” Id. However, while
“we accord deference to a trial court with regard to factual
findings, our review of legal conclusions is de novo.” Id. at n.7
(citation omitted). Indeed, it is a long-standing appellate
principle that, “[w]ith respect to - inferences and deductions
from facts and [] conclusions of
[J-100-2020] - 49
law, . . . appellate courts have the power to draw their own
inferences and make their own deductions and conclusions.”
In re Pruner's Est., 162 A.2d 626, 631 (Pa. 1960) (citations
omitted). Here, the trial court presided over the habeas
corpus hearing, viewing and hearing the witnesses and their
testimonies first-hand. From that vantage point, the trial
court determined that, as a matter of act, D.A. Castor had not
extended a formal promise to Cosby never to prosecute him,

Appendix A-85

let alone consummated a formal non-prosecution agreement
with Cosby. The factual basis for the court’s findings was twofold. First, the court characterized the interaction between
the district attorney and Cosby as a failed attempt to reach a
statutorily prescribed transactional immunity agreement.
Second, the court concluded that the former district
attorney’s

testimony

regarding

the

legal

relationship

between him and Cosby was inconsistent and “equivocal at
best.” T.C.O. at 63. Both findings are supported adequately
by the record. Pursuant to 42 Pa.C.S. § 5947, when a
prosecutor wishes to formalize an immunity agreement, he or
she “may request an immunity order from any judge of a
designated court.” Id. § 5947(b). Presented with such a
request, the petitioned court “shall issue such an order,” id.,
upon which a witness “may not refuse to testify based on his
privilege against self-incrimination.” Id. § 5947(c). At the
habeas hearing, former District Attorney Castor testified that
he intended to provide Cosby with transactional immunity.
He explained that this conferral was predicated upon the

Appendix A-86

state’s common-law authority as a sovereign rather than any
statutory provisions or protocols. T.C.O. at 57 (citing N.T.,
2/2/2016, at 232, 234, 236). The record does not contradict his
testimony. There is no evidence, nor any real contention, that
the parties even contemplated a grant of immunity under
Section 5947. The trial court’s finding that the interaction
between D.A. Castor and
[J-100-2020] - 50
Cosby was not a formal attempt to bestow transactional
immunity upon Cosby is supported by the record. The trial
court’s description of former D.A. Castor’s testimony as
inconsistent and equivocal finds support in the record as well.
At times, the former district attorney was emphatic that he
intended his decision not to prosecute Cosby to bind the
Commonwealth

permanently,

provided

no

substantive

changes occurred in the case, such as Cosby confessing to the
alleged crimes or proof appearing that Cosby had lied to, or
attempted to deceive, the investigators. In addition to the
unconditional nature of the press release, former D.A. Castor

Appendix A-87

told then-District Attorney Ferman in his first email to her
that

he

“intentionally

and

specifically

bound

the

Commonwealth that there would be no state prosecution.”
N.T., 2/2/2016, Exh. D-5. In his second email to D.A. Ferman,
Mr. Castor asserted that, by “signing off” on the press release,
he was “stating that the Commonwealth will not bring a case
against Cosby for this incident based upon then available
evidence.” Id., Exh. D-7. Further indicative of his intent to
forever preclude prosecution of Cosby for the 2004 incident,
former D.A. Castor testified that the signed press release was
meant to serve as proof for a future civil judge that Cosby
would not be prosecuted, thus stripping Cosby of his Fifth
Amendment right not to testify. Mr. Castor emphasized that
his decision was “absolute that [Cosby] never would be
prosecuted.” T.C.O. at 52. The former district attorney
stressed that his intent was to “absolutely” remove “for all
time” the prospect of a prosecution, because, in his view, only
a steadfast guarantee would permanently strip Cosby of his
right to invoke the Fifth Amendment. N.T., 2/2/2016, at 67.

Appendix A-88

Mr. Castor also expounded upon the purpose of his emails to
D.A. Ferman, which he claimed were an attempt to inform
her that, while he bound the Commonwealth with regard to
the 2004 incident, she was free to prosecute Cosby for any
other crimes that she might uncover.
[J-100-2020] - 51
Although former D.A. Castor stated that he intended
permanently to bar prosecution of Cosby, he also testified
that he sought to confer some form of transactional
immunity. In his second email to D.A. Ferman, former
district attorney Castor suggested that his intent in “signing
off” on the press release was to assure Cosby that nothing
that he said in a civil deposition could or would be used
against him in a criminal prosecution. N.T., 2/2/2016, Exh. D7. In the same email, he simultaneously expressed his belief
that “a prosecution is not precluded.” Id. As such, the
evidence suggests that D.A. Castor was motivated by
conflicting aims when he decided not to prosecute Cosby. On
one hand, the record demonstrates that D.A. Castor

Appendix A-89

endeavored to forever preclude the Commonwealth from
prosecuting Cosby if Cosby testified in the civil case. On the
other hand, the record indicates that he sought to foreclose
only the use in a subsequent criminal case of any testimony
that Cosby gave in a civil suit. The trial court was left to
resolve these seeming inconsistencies. The court concluded
that Cosby and D.A. Castor did not enter into a formal
immunity agreement.
Because the record supports the trial court’s findings in this
regard, we are bound by those conclusions. Pertinently, we
are bound by the trial court’s determination that D.A.
Castor’s actions amounted only to a unilateral exercise of
prosecutorial discretion. This characterization is consistent
with the former district attorney’s insistence at the habeas
hearing that what occurred between him and Cosby was not
an agreement, a contract, or any kind of quid pro quo
exchange. We are not, however, bound by the lower courts’
legal determinations that derive from those factual findings.
Thus, the question becomes whether, and under what

Appendix A-90

circumstances, a prosecutor’s exercise of his or her charging
discretion binds future prosecutors’ exercise of the same
discretion. This is a question of law.
[J-100-2020] - 52
For the reasons detailed below, we hold that, when a
prosecutor makes an unconditional promise of nonprosecution, and when the defendant relies upon that
guarantee to the detriment of his constitutional right not to
testify, the principle of fundamental fairness that undergirds
due process of law in our criminal justice system demands
that the promise be enforced. Prosecutors are more than mere
participants in our criminal justice system. As we explained
in Commonwealth v. Clancy, 192 A.3d 44 (Pa. 2018),
prosecutors inhabit three distinct and equally critical roles:
they are officers of the court, advocates for victims, and
administrators of justice. Id. at 52. As the Commonwealth’s
representatives, prosecutors are duty-bound to pursue “equal
and impartial justice,” Appeal of Nicely, 18 A. 737, 738 (Pa.
1889), and “to serve the public interest.” Clancy, 192 A.3d 52.
Their obligation is “not merely to convict,” but rather to “seek
justice within the bounds of the law.” Commonwealth v.
Starks, 387 A.2d 829, 831 (Pa. 1978). As an “administrator of
justice,” the prosecutor has the power to decide whether to
initiate formal criminal proceedings, to select those criminal
charges which will be filed against the accused, to negotiate
plea bargains, to withdraw charges where appropriate, and,
ultimately, to prosecute or dismiss charges at trial. See, e.g.,
16 P.S. § 1402(a) (“The district attorney shall sign all bills of
indictment and conduct in court all criminal and other
prosecutions . . . .”); Pa.R.Crim.P. 507 (establishing the
prosecutor’s power to require that police officers seek
approval from the district attorney prior to filing criminal
complaints); Pa.R.Crim.P. 585 (power to move for nolle

Appendix A-91

prosequi); see also ABA Standards §§ 3-4.2, 3-4.4. The extent
of the powers enjoyed by the prosecutor was discussed most
eloquently by United States Attorney General (and later
Supreme Court Justice) Robert H. Jackson. In his historic
address to the nation’s United States Attorneys, gathered in
1940 at the Department of Justice in Washington, D.C.,
Jackson observed that “[t]he prosecutor has more control over
life, liberty, and reputation than any other person in America.
His discretion is tremendous.” Robert H. Jackson, The
Federal Prosecutor, 31 AM. INST. CRIM. L. &
CRIMINOLOGY 3, 3 (1940). In fact, the prosecutor is
afforded such great deference that this Court and the
Supreme Court of the United States seldom interfere with a
prosecutor’s charging decision. See, e.g., United States v.
Nixon, 418 U.S. 683, 693 (1974) (noting that “the Executive
Branch has exclusive authority and absolute discretion to
decide whether to prosecute a case”); Stipetich, 652 A.2d at
1295 (noting that “the ultimate discretion to file criminal
charges lies in the district attorney”). Clancy, 192 A.3d at 53
(cleaned up).
As prosecutors are vested with such “tremendous” discretion
and authority, our law has long recognized the special weight
that must be accorded to their assurances. For instance, in
the

context

of statements made

during

guilty plea

negotiations, the Supreme Court of the United States has
held that, as a matter of constitutional due process and as
compelled by the principle of fundamental fairness, a
defendant generally is entitled to the benefit of assurances
made by the prosecutor. See Santobello v. New York, 404 U.S.

Appendix A-92

257 (1971). 21 Santobello holds that, “when a plea rests in any
significant degree on a promise or agreement by the
prosecutor, so that it can be said to be part of the inducement
or consideration, such promise must be fulfilled.” Id. at 262
(emphasis added). This Court has followed suit with regard
to prosecutorial inducements made during the guilty plea
process, insisting that such inducements comport with the
due

process

guarantee

of

fundamental

fairness.

In

Commonwealth v. Zuber, 353 A.2d 441 (Pa. 1976), during plea
negotiations in a murder case, the prosecutor agreed to
recommend to the sentencing court that Rickey Zuber receive
a sentence of seven to fourteen years in prison if he pleaded
guilty. Id. at 442-43. The prosecutor also agreed to consent to
a request that Zuber’s sentence be served concurrently with
“back time” that Zuber was required to serve for a parole
In Santobello, the Supreme Court of the United States did not state
explicitly that it was premising its holding on due process guarantees.
Nevertheless, it is only sensible to read Santobello’s holding as resting
upon due process principles because—as Justice Douglas noted in his
concurring opinion—without a constitutional basis the Court would have
lacked jurisdiction over what was otherwise a state law matter. See
Santobello, 404 U.S., at 266-67 (Douglas, J. concurring).

21

Appendix A-93

violation. Id. at 443. The prosecutor stated the terms of the
agreement on the record, and the trial court accepted the
terms of Zuber’s guilty plea and
[J-100-2020] - 54
sentenced Zuber accordingly. However, because the law
requires that “back time” sentences and new sentences be
served consecutively, Zuber was legally obligated to begin
serving his sentences one after the other, instead of
simultaneously. Id. Zuber sought post-conviction relief,
arguing that the plea as stated in open court had to be
enforced, statutory law notwithstanding. On appeal to this
Court, Zuber argued that he was “induced by the specific
promise made by the Commonwealth,” which ultimately
turned out to be a “false and empty one.” Id. We noted that
plea bargaining is looked upon favorably and that “the
integrity of our judicial process demands that certain
safeguards be stringently adhered to so that the resultant
plea as entered by a defendant and accepted by the trial court

Appendix A-94

will always be one made voluntarily and knowingly, with a
full understanding of the consequences to follow.” Id.

[T]here is an affirmative duty on the part of the prosecutor to
honor any and all promises made in exchange for a
defendant’s plea. Our courts have demanded strict
compliance with that duty in order to avoid any possible
perversion of the plea bargaining system, evidencing the
concern that a defendant might be coerced into a bargain or
fraudulently induced to give up the very valued constitutional
guarantees attendant the right to trial by jury. Therefore, in
Pennsylvania, it is well settled that where a plea bargain has
been entered into and is violated by the Commonwealth, the
defendant is entitled, at the least, to the benefit of the
bargain. Id. at 444 (cleaned up).
We then turned to the remedy to which Zuber was entitled,
which was problematic because enforcement of the plea
necessarily meant compelling an outcome that was prohibited
by statute. Nonetheless, because, inter alia, Zuber had
“reasonably relied upon the advice of his counsel and the
expression of that specific promise stated in open court by the
assistant district attorney,” id. at 445, he was entitled to the
benefit of the bargain. Thus, we modified Zuber’s sentence by
lowering the minimum range to reflect [J-100-2020] - 55

Appendix A-95

the point at which Zuber would have been eligible for parole
had the original bargain been enforceable by law. Id. at 446.
Interactions between a prosecutor and a criminal defendant,
including circumstances where the latter seeks enforcement
of some promise or assurance made by the former, are not
immune from the dictates of due process and fundamental
fairness. The contours and attendant obligations of such
interactions also can involve basic precepts of contract law,
which inform the due process inquiry. The applicability of
contract law to aspects of the criminal law has been
recognized by the Supreme Court of the United States, see
Puckett v. United States, 556 U.S. 129, 137 (2009), by the
United States Court of Appeals for the Third Circuit, see
McKeever v. Warden SCI-Graterford, 486 F.3d 81, 86 (3d Cir.
2007), and by this Court. See Commonwealth v. Martinez, 147
A.3d 517, 531 (Pa. 2016). In order to succeed on a claim of
promissory estoppel, the aggrieved party must prove that: (1)
the promisor acted in a manner that he or she should have
reasonably expected to induce the other party into taking (or

Appendix A-96

not taking) certain action; (2) the aggrieved party actually
took such action; and (3) an injustice would result if the
assurance that induced the action was not enforced. See
Crouse v. Cyclops Indus., 745 A.2d 606, 610 (Pa. 2000).
In Martinez, we reexamined the enforceability of terms of
plea agreements made by prosecutors pertaining to the
applicability of sexual offender registration obligations.
There, three defendants entered into plea bargains with the
Commonwealth, each of which was formulated in a way that
either limited or eliminated the defendants’ obligations under
the then-applicable sexual offender registration statute.
Martinez, 147 A.3d at 521- 22. However, after some time, our
General Assembly enacted the first version of SORNA, which
fundamentally altered the registration and reporting
obligations of sexual offenders, including those of the three
offenders in Martinez. Each defendant was notified by the
[J-100-2020] - 56
Pennsylvania State Police that he or she was subject to the
intervening statute and thus had to comply with the new

Appendix A-97

obligations under SORNA, even though those obligations
contradicted the terms of each of their plea deals. Id. at 522523. Each of the three offenders filed an action seeking the
enforcement of the terms of his guilty plea, notwithstanding
the fact that those terms conflicted with the newly enacted
statute.

Id.

at

523-24.

Citing

Santobello,

Zuber,

Commonwealth v. Hainesworth, 82 A.3d 444 (Pa. Super.
2013) (en banc), and other decisions, this Court held that the
offenders were entitled to specific performance of the terms
of the plea bargains to which the prosecutors had agreed.
Martinez, 147 A.3d at 531-32. We held that, once a bargained
term is enveloped within a plea agreement, a defendant “is
entitled to the benefit of his bargain through specific
performance of terms of the plea agreement.” Id. at 533.
The applicability of contract law principles to criminal
negotiations is not limited to the plea bargaining process. See
United States v. Carrillo, 709 F.2d 35 (9th Cir. 1983) (holding
that fundamental fairness requires a prosecutor to uphold his
or her end of a non-prosecution agreement). For instance, the

Appendix A-98

United States Court of Appeals for the Third Circuit has
explained that, like plea agreements, non-prosecution
agreements are binding contracts that must be interpreted
according to general principles of contract law, guided by
“special due process concerns.” United States v. Baird, 218
F.3d 221, 229 (3d Cir. 2000) (citation omitted). And, in
Commonwealth v. Ginn, 587 A.2d 314 (Pa. Super. 1991), our
Superior

Court

similarly

held

that

non-prosecution

agreements are akin to plea agreements, necessitating the
application of contract law principles to prevent prosecutors
from violating the Commonwealth’s promises or assurances.
Id. at 316-17. Under some circumstances, assurances given
by

prosecutors

during

plea

negotiations,

even

unconsummated ones, may be enforceable on equitable
grounds
[J-100-2020] - 57
rather than on contract law principles. Government of Virgin
Islands v. Scotland, 614 F.2d 360 (3d Cir. 1980), is
instructive. In that case, the parties had reached a tentative,

Appendix A-99

preliminary plea agreement. But before the defendant could
formally enter the plea, the prosecutor attempted to add
another term to the deal. Id. at 361-62. The defendant
rejected the new term and sought specific performance of the
original, unconsummated agreement. Id. The district court
denied his request. The Circuit Court of Appeals affirmed,
holding that, because the agreement was not formalized and
accepted by the court, the defendant was not entitled to
specific performance under a contract law theory. Id. at 362.
The appellate court noted that, absent detrimental reliance
upon the prosecutor’s offer, a defendant’s due process rights
were sufficiently safeguarded by his right to a jury trial. Id.
at 365. The court cautioned, however, that, by contrast, when
a

“defendant detrimentally relies on the government’s

promise, the resulting harm from this induced reliance
implicates due process guarantees.” Id. 22

Ultimately, the court did not grant the defendant relief under a theory
of detrimental reliance because there was “no claim in this case of such
reliance.” Scotland, 614 F.2d at 365.
22

Appendix A-100

Considered together, these authorities obligate courts to hold
prosecutors to their word, to enforce promises, to ensure that
defendants’ decisions are made with a full understanding of
the circumstances, and to prevent fraudulent inducements of
waivers of one or more constitutional rights. Prosecutors can
be bound by their assurances or decisions under principles of
contract law or by application of the fundamental fairness
considerations that inform and undergird the due process of
law. The law is clear that, based upon their unique role in the
criminal justice system, prosecutors generally are bound by
their assurances, particularly when defendants rely to their
detriment upon those guarantees.
[J-100-2020] - 58
There is no doubt that promises made during plea
negotiations or as part of fully consummated plea agreements
differ in kind from the unilateral discretion exercised when a
prosecutor declines to pursue criminal charges against a
defendant. As suggested by the trial court in the present case,
such an exercise of discretion is not per se enforceable in the

Appendix A-101

same way that a bargained-for exchange is under contract
law. The prosecutor enjoys “tremendous” discretion to wield
“the power to decide whether to initiate formal criminal
proceedings, to select those criminal charges which will be
filed against the accused, to negotiate plea bargains, to
withdraw charges where appropriate, and, ultimately, to
prosecute or dismiss charges at trial.” Clancy, 192 A.3d at 53.
Unless patently abused, this vast discretion is exercised
generally beyond the reach of judicial

interference. See

Stipetich, 652 A.2d at 1295 (noting that “the ultimate
discretion to file criminal charges lies in the district
attorney”).
While the prosecutor’s discretion in charging decisions is
undoubtedly vast, it is not exempt from basic principles of
fundamental fairness, nor can it be wielded in a manner that
violates a defendant’s rights. The foregoing precedents make
clear that, at a minimum, when a defendant relies to his or
her detriment upon the acts of a prosecutor, his or her due
process rights are implicated. See, e.g., Santobello, Baird, and

Appendix A-102

Scotland, supra. The Fourteenth Amendment to the United
States Constitution and Article I, Section 9 of the
Pennsylvania Constitution mandate that all interactions
between the government and the individual are conducted in
accordance with the protections of due process. See
Commonwealth v. Sims, 919 A.2d 931, 941 n.6 (Pa. 2007)
(noting that federal and state due process principles
generally are understood as operating co-extensively). We
have explained that review of a due process claim “entails an
assessment as to whether the challenged proceeding or
conduct offends some principle of justice so rooted in the
[J-100-2020] - 59
traditions and conscience of our people as to be ranked as
fundamental and that defines the community’s sense of fair
play and decency.” Commonwealth v. Kratsas, 764 A.2d 20,
27 (Pa. 2001) (cleaned up). Due process is a universal concept,
permeating all aspects of the criminal justice system. Like
other state actors, prosecutors must act within the
boundaries set by our foundational charters. Thus, we discern

Appendix A-103

no cause or reason, let alone any compelling one, to waive the
prosecution’s duty to comply with due process simply because
the act at issue is an exercise of discretion, e.g., whether or
not to charge a particular suspect with a crime. That is not to
say that each and every exercise of prosecutorial discretion
with regard to charging decisions invites a due process
challenge. Charging decisions inhere within the vast
discretion afforded to prosecutors and are generally subject
to review only for arbitrary abuses. A prosecutor can choose
to prosecute, or not. A prosecutor can select the charges to
pursue, and omit from a complaint or bill of information those
charges that he or she does not believe are warranted or
viable on the facts of the case. A prosecutor can also condition
his or her decision not to prosecute a defendant. For instance,
a prosecutor can decide initially not to prosecute, subject to
possible receipt or discovery of new inculpatory evidence. Or,
a prosecutor can choose not to prosecute the defendant at the
present time, but may inform the defendant that the decision
is not final and that the prosecutor may change his or her

Appendix A-104

mind within the period prescribed by the applicable statute
of limitations. Similarly, there may be barriers to a
prosecution, such as the unavailability of a witness or
evidence, which subsequently may be removed, thus enabling
a prosecution to proceed. Generally, no due process violation
arises from these species of discretionary decision-making,
and a defendant is without recourse to seek the enforcement
of any assurances under such circumstances.
[J-100-2020] - 60
An entirely different situation arises when the decision not to
prosecute is unconditional, is presented as absolute and final,
or is announced in such a way that it induces the defendant
to act in reliance thereupon. When a non-prosecution decision
is conveyed in such a way, and when a defendant, having no
indication to the contrary, detrimentally relies upon that
decision, due process may warrant preclusion of the
prosecution. Numerous state and federal courts have found
that

a

defendant’s

detrimental

reliance

upon

the

government’s assurances during the plea bargaining phase

Appendix A-105

both implicates his due process rights and entitles him to
enforcement even of unconsummated agreements. The cases
are legion. 23
[J-100-2020] - 61

See, e.g., State v. Francis, 424 P.3d 156, 160 (Utah 2017) (holding that,
“[w]hen a defendant has reasonably and detrimentally relied on a plea
agreement, the State should
not be able to withdraw a plea agreement just because it has not yet been
presented to the district court”); State v. Johnson, 360 S.W.3d 104, 115
(Ark. 2010) (holding that, “when the State has entered into an agreement
not to prosecute with a prospective defendant
and the defendant has performed and acted to his detriment or prejudice
in reliance upon that agreement, the government must be required to
honor such an agreement.”); People v. Rhoden, 89 Cal. Rptr.2d 819, 824
(Cal. App. 4th Dist. 1999) (explaining “unexecuted plea bargains
generally do not involve constitutional rights absent detrimental reliance
on the bargain”); United States v. Streebing, 987 F.2d 368, 372-73 (6th
Cir. 1993) (holding that the defendant had to demonstrate, inter alia, that
he had relied upon the government’s promise to his detriment before the
promise would be enforceable); United States v. Savage, 978 F.2d 1136,
1138 (9th Cir. 1992) (explaining that a defendant’s detrimental reliance
is an exception to the general rule that defendants are not entitled to
enforcement of unconsummated plea agreements); State v. Parkey, 471
N.W.2d 896, 898 (Iowa App. 1991) (finding that, in the absence of a
showing that the defendant detrimentally relied upon an agreement with
the prosecutor, dismissal was not warranted); Rowe v. Griffin, 676 F.2d
524, 528 (11th Cir. 1982) (stating that, when a promise induces a
defendant to waive his Fifth Amendment rights by testifying or otherwise
cooperating with the government to his detriment, due process requires
that the prosecutor’s promise be fulfilled); People v. Reagan, 235 N.W.2d
581, 587 (Mich.1975) (noting that, where the defendant was prejudiced by
submitting to a polygraph in exchange for an agreement that his
prosecution would be dismissed, trial court erred in refusing to enforce
the agreement).
23

Appendix A-106

That is what happened in this case. There has been
considerable debate over the legal significance of District
Attorney Castor’s publicly announced decision not to
prosecute Cosby in 2005. Before the trial court, the Superior
Court, and now this Court, the parties have vigorously
disputed whether D.A. Castor and Cosby reached a binding
agreement, whether D.A. Castor extended an enforceable
promise, or whether any act of legal significance occurred at
all. There is testimony in the record that could support any of
these conclusions. The trial court—the entity charged with
sorting through those facts—found that D.A. Castor made no
agreement or overt promise. Much of that debate, and the
attendant factual conclusions, were based upon the apparent
absence of a formal agreement and former D.A. Castor’s
various efforts to defend and explain his actions ten years
after the fact. As a reviewing court, we accept the trial court’s
conclusion that the district attorney’s decision was merely an

Appendix A-107

exercise of his charging discretion. 24 As we assess whether
that decision, and the surrounding 24
[J-100-2020] - 62
circumstances, implicated Cosby’s due process rights, former
D.A. Castor’s post-hoc attempts to explain or characterize his
actions are largely immaterial. The answer to our query lies
instead in the objectively indisputable evidence of record
The dissent agrees—as do we —with the trial court’s conclusion that
D.A. Castor’s decision not to prosecute was, at its core, an exercise of the
inherent charging discretion vested in district attorneys. See D.O. at 1.
But the dissent would simply end the analysis there. In the dissent’s view,
once a decision is deemed to fall within a prosecutor’s discretion, that
decision “in no way” can bind the actions of future elected prosecutors.
Respectfully, this perspective overlooks the verity that not all decisions
are the same. As to routine discretionary decisions, the dissent may be
correct. But as we explain throughout this opinion, what occurred here
was anything but routine. Here, D.A. Castor’s exercise of discretion was
made deliberately to induce the deprivation of a fundamental right. The
typical decision to prosecute, or not to prosecute, is not made for the
purpose of extracting incriminating information from a suspect when
there exists no other mechanism to do so.
The dissent would amalgamate and confine all “present exercise[s] of
prosecutorial discretion” within a single, non-binding, unenforceable, and
unreviewable category. Id. We decline to endorse this blanket approach,
as such decisions merit, and indeed require, individualized evaluation. To
rule otherwise would authorize, if not encourage, prosecutors to choose
temporarily not to prosecute, obtain incriminating evidence from the
suspect, and then reverse course with impunity. Due process necessarily
requires that court officials, particularly prosecutors, be held to a higher
standard. This is particularly so in circumstances where the prosecutor’s
decision is crafted specifically to induce a defendant to forfeit a
constitutional right, and where the defendant has relied upon that
decision to his detriment. The dissent’s approach would turn a blind eye
to the reality of such inducements. Due process does not.
24

Appendix A-108

demonstrating D.A. Castor’s patent intent to induce Cosby’s
reliance upon the non-prosecution decision. In January and
February of 2005, then-D.A. Castor led an investigation into
Constand’s allegations. When that investigation concluded,
Mr. Castor decided that the case was saddled with
deficiencies such that proving Cosby’s guilt beyond a
reasonable doubt was unlikely, if not impossible. For those
reasons, D.A. Castor decided not to prosecute Cosby. To
announce his decision, the district attorney elected to issue a
signed press release—an uncommon tactic in the typical case,
but not necessarily so in cases of high public profile or
interest. In that press statement, D.A. Castor explained the
extent and nature of the investigation and the legal rules and
principles that he considered. He then announced that he was
declining to prosecute Cosby. The decision was not
conditioned in any way, shape, or form. D.A. Castor did not
say that he would re-evaluate this decision at a future date,
that the investigation would continue, or that his decision
was subject to being overturned by any future district

Appendix A-109

attorney. There is nothing from a reasonable observer’s
perspective to suggest that the decision was anything but
permanent. The trial court found contrary indicia in the
latter portion of the press release, where Mr. Castor
“cautioned all parties to this matter that [District Attorney
Castor] will reconsider this decision should the need arise,”
Press Release, 2/17/2005; N.T., 2/2/2016, Exh. D-4. The trial
court’s narrow interpretation of
[J-100-2020] - 63
“this decision” is possible only when this sentence is read in
isolation. 25 The court ignored what came before and after,
omitting all relevant and necessary context. The entire

There is no doubt that there are two decisions at issue: the decision not
to prosecute and the decision not to discuss that choice in public. The
dissent would endorse the trial court’s selective interpretation of D.A.
Castor’s language in the press release, finding at a minimum that D.A.
Castor’s assertion that he would reconsider the “decision” is ambiguous.
But a plain reading of the release belies such a construction. Like the trial
court’s interpretation of the relevant paragraph of the press release, the
dissent’s finding of ambiguity can result only when one overlooks the
context and surrounding statements quite entirely. D.A. Castor stated
that he did not intend to discuss the details of his decision not to
prosecute. In the very next sentence, D.A. Castor stated that he would
reconsider “this decision” if the need arose. In context, “this decision”
must naturally refer to the decision not to discuss the matter with the
public. This is so because announcing that particular decision was the
very purpose of the immediately preceding statement, and the subject
25

Appendix A-110

passage reads as follows:
Because a civil action with a much lower standard for proof
is possible, the District Attorney renders no opinion
concerning the credibility of any party involved so as to not
contribute to the publicity and taint potential jurors. The
District Attorney does not intend to expound publicly on the
details of his decision for fear that his opinions and analysis
might be given undue weight by jurors in any contemplated
civil action. District Attorney Castor cautions all parties to
this matter that he will reconsider this decision should the
need arise. Much exists in this investigation that could be
used (by others) to portray persons on both sides of the issue
in a less than flattering light. The District Attorney
encourages the parties to resolve their dispute from this point
forward with a minimum of rhetoric.
Id. (emphasis added).
[J-100-2020] - 64

sentence naturally modifies that prior statement. D.A. Castor already had
stated earlier in the press release that he had decided not to prosecute
Cosby. Thus, when D.A. Castor referred to “this decision” in the particular
paragraph under examination, he was referring not to a decision
addressed much earlier in the press release but rather to the decision that
he had stated for the first time in the immediately preceding sentence.
Even more compelling is the fact that the entirety of the paragraph relates
to D.A. Castor’s concern about the potential effect that any public
statements that he would make might have on jurors empaneled in a civil
case. Nothing at all in that paragraph pertains to the decision not to
prosecute Cosby. As noted, D.A. Castor already had addressed the nonprosecution decision. There is no support for the notion that D.A. Castor
was referring to his decision not to prosecute Cosby in the middle of a
paragraph directed exclusively to: (1) the potential impact that any public
explication by D.A. Castor might have upon the fairness of a civil case;
and (2) D.A. Castor’s derivative decision not to discuss the matter publicly
in order to avoid that potential impact.

Appendix A-111

When we review the statement in its full context, it is clear
that, when D.A. Castor announced that he “will reconsider
this decision should the need arise,” the decision to which he
was referring was his decision not to comment publicly “on
the details of his [charging] decision for fear that his opinions
and analysis might be given undue weight by jurors in any
contemplated civil action.” The entire paragraph addresses
the district attorney’s concern that he might inadvertently
taint a potential civil jury pool by making public remarks
about the credibility of the likely parties in that highly
anticipated case. Then-D.A. Castor expressly stated that he
could change his mind on that decision only. Nothing in this
paragraph pertains to his decision not to prosecute Cosby.
The trial court’s conclusion is belied by a plain reading of the
entire passage. Our inquiry does not end there. D.A. Castor’s
press release, without more, does not necessarily create a due
process entitlement. Rather, the due process implications
arise

because

Cosby

detrimentally

relied

upon

the

Commonwealth’s decision, which was the district attorney’s

Appendix A-112

ultimate intent in issuing the press release. There was no
evidence of record indicating that D.A. Castor intended
anything other than to induce Cosby’s reliance. Indeed, the
most patent and obvious evidence of Cosby’s reliance was his
counseled decision to testify in four depositions in Constand’s
civil case without ever invoking his Fifth Amendment rights.
The Fifth Amendment to the United States Constitution,
which is applicable to the States via incorporation though the
Fourteenth Amendment, commands that “[n]o person ... shall
be compelled in any criminal case to be a witness against
himself.” U.S. CONST.

amend. V. The right to refuse to

incriminate oneself is an “essential mainstay” of our
constitutional system of criminal justice. Malloy v. Hogan,
378 U.S. 1, 7 (1964). The privilege constitutes an essential
restraint upon the power of the government, and stands as an
indispensable rampart between that government and the
governed. The Fifth
[J-100-2020] - 65

Appendix A-113

Amendment’s self-incrimination clause “is not only a
protection against conviction and prosecution but a safeguard
of conscience and human dignity and freedom of expression
as well.” Ullmann v. United States, 350 U.S. 422, 445 (1956)
(Douglas, J., dissenting). We recently discussed the centrality
of the privilege against compulsory self incrimination in the
American concept of ordered liberty in Commonwealth v.
Taylor, 230 A.3d 1050 (Pa. 2020). There, we noted that
certain rights, such as those enshrined in the Fifth
Amendment, are among those privileges “whose exercise a
State may not condition by the exaction of a price.” Id. at 1064
(quoting Garrity v. New Jersey, 385 U.S. 493, 500 (1967)). To
ensure that these fundamental freedoms are “scrupulously
observed,” we emphasized that “it is the duty of courts to be
watchful for the constitutional rights of the citizen, and
against any stealthy encroachments thereon,” id. at 1063-64
(quoting Boyd v. United States, 116 U.S. 616, 635 (1886)), and
that “the Fifth Amendment is to be “broad[ly] constru[ed] in
favor of the right which it was intended to secure.” Id. At

Appendix A-114

1064 (quoting Counselman v. Hitchcock, 142 U.S. 547, 562
(1892), Boyd, 116 US. At 635, and Quinn v. United States,
349 U.S. 155, 162 (1955)). We stressed that “[t]he value of
constitutional privileges is largely destroyed if persons can be
penalized for relying on them.” Id. at 1064 (quoting
Grunewald v. United States, 353 U.S. 391, 425 (1957) (Black,
J., concurring). 26

The right against compulsory self-

incrimination accompanies a person wherever he goes, no
matter the legal proceeding in which he participates, unless
and until “the potential exposure to criminal punishment no
longer exists.” Taylor, 230 A.3d at 1065. It
[J-100-2020] - 66
is indisputable that, in Constand’s civil case, Cosby was
entitled to invoke the Fifth Amendment. No court could have
forced Cosby to testify in a deposition or at a trial so long as
To that end, the application of the privilege against self-incrimination
is not limited to criminal matters. Its availability “does not turn upon the
type of proceeding in which its protection is invoked, but upon the nature
of the statement or admission and the exposure which it invites.” Id.
(quoting Application of Gault, 387 U.S. 1, 49 (1967)). “The privilege may,
for example, be claimed in a civil or administrative proceeding, if the
statement is or may be inculpatory.” Gault, 387 U.S. at 49.
26

Appendix A-115

the potential for criminal charges remained. Here, however,
when called for deposition, Cosby no longer faced criminal
charges. When compelled to testify, Cosby no longer had a
right to invoke his right to remain silent. Cosby was forced to
sit for four depositions. That he did not—and could not—
choose to remain silent is apparent from the record. When
Cosby attempted to decline to answer certain questions about
Constand, Constand’s attorneys obtained a ruling from the
civil trial judge forcing Cosby to answer. Most significantly,
Cosby, having maintained his innocence in all matters and
having been advised by a number of attorneys, provided
critical evidence of his recurring history of supplying women
with central nervous system depressants before engaging in
(allegedly unwanted) sexual activity with them—the very
assertion that undergirded Constand’s criminal complaint.
The trial court questioned whether Cosby believed that he no
longer had a Fifth Amendment right to invoke during the civil
proceedings, or whether he would have invoked that right
had he still possessed it. The court noted that Cosby

Appendix A-116

voluntarily had submitted to a police interview and had
provided the police with a consent-based defense.

Cosby

repeated this narrative in his depositions. The court found no
reason to believe that Cosby would not continue to cooperate
as he had, and, thus, discerned no reason for him to invoke
the Fifth Amendment. In other words, it was not that the trial
court surmised that Cosby had no privilege against
compulsory self-incrimination to invoke, but rather that
Cosby simply chose not to invoke it.

The trial court’s

conjecture was legally erroneous. The trial court surmised
that,although Cosby repeatedly told an exculpatory, consentbased version of the January 2004 incident, he naturally
would have been willing to offer inculpatory information
about
[J-100-2020] - 67
himself as well. Assuming that a person validly possesses the
right to refrain from giving evidence against himself, he may
invoke that right “at any time.” See Miranda v. Arizona, 384
U.S. 436, 473 (1966); Commonwealth v. Dulaney, 295 A.2d

Appendix A-117

328, 330 (Pa. 1972). The fact that Cosby did not assert any
right to remain silent to the police or while sitting for the
depositions is of no moment. Had his right to remain silent
not been removed by D.A. Castor’s decision, Cosby would
have been at liberty to invoke that right at will. That Cosby
did not do so at other junctures is not proof that he held the
right but elected not to invoke it, as the trial court evidently
reasoned. To assume an implicit waiver of the right violates
a court’s “duty . . . to be watchful for the constitutional rights
of the citizen,” and to construe the existence of such rights
broadly. Taylor, 230 A.3d at 1064 (quoting Boyd, supra).
These legal commandments compel only one conclusion.
Cosby did not invoke the Fifth Amendment before he
incriminated himself because he was operating under the
reasonable belief that D.A. Castor’s decision not to prosecute
him meant that “the potential exposure to criminal
punishment no longer exist[ed].” Id. at 1065. Cosby could not
invoke that which he no longer possessed, given the
Commonwealth’s assurances that he faced no risk of

Appendix A-118

prosecution. Not only did D.A. Castor’s unconditional
decision not to prosecute Cosby strip Cosby of a fundamental
constitutional right, but, because he was forced to testify,
Cosby provided Constand’s civil attorneys with evidence of
Cosby’s past use of drugs to facilitate his sexual exploits.
Undoubtedly, this information hindered Cosby’s ability to
defend against the civil action, and led to a settlement for a
significant amount of money. We are left with no doubt that
Cosby relied to his detriment upon the district attorney’s
decision not to prosecute him. The question then becomes
whether that reliance was reasonable. Unreasonable reliance
warrants no legal remedy.
[J-100-2020] - 68
We already have determined that Cosby in fact relied upon
D.A. Castor’s decision. We now conclude that Cosby’s reliance
was reasonable, and that it also was reasonable for D.A.
Castor to expect Cosby to so rely. The record establishes

Appendix A-119

without contradiction that depriving Cosby of his Fifth
Amendment right was D.A. Castor’s intended result. 27
His actions were specifically designed to that end. The former
district attorney may have equivocated or contradicted

The dissent asserts that we have predicated our decision upon the
existence of an “unwritten promise,” which was rejected by the trial
court’s credibility findings. D.O. at 3. To the contrary. As we explained
earlier, we have accepted the trial court’s findings in this regard, and
those findings, which are supported by the record, are binding on this
Court. See, supra, page 48 (citing O’Rourke, 778 A.2d at 1199 (Pa. 2001)).
However, our deference is limited to the factual findings only; we may
draw our own inferences therefrom and reach our own legal conclusions.
See In re Pruner's Est., 162 A.2d at 631. Thus, the trial court’s factual
finding that no formal bargained-for-exchange, written or unwritten,
occurred does not constrain our legal analysis, nor does it in any way serve
to immunize D.A. Castor’s actions from constitutional scrutiny. That
there was no formal promise does not mean that Cosby no longer had due
process rights. The trial court’s credibility finding regarding the existence
vel non of a particular promise does not allow us to ignore the remainder
of the overwhelming evidence of record. The record firmly establishes that
D.A. Castor’s desired result was to strip Cosby of his Fifth Amendment
rights. This patent and developed fact stands separate and apart from the
trial court’s finding that D.A. Castor never extended a formal promise.
The dissent would ignore the undeniable reality that Cosby relied to his
detriment upon D.A. Castor’s decision. The dissent does so by shifting the
perspective from D.A. Castor’s actions to Cosby’s, focusing in particular
upon the fact that Cosby did not record the purported agreement or reduce
it to writing. As we note in this opinion, in this context, neither a promise,
nor an agreement, nor a contract, nor evidence of reliance derives legal
validity only upon being recorded or upon written materialization. The
law knows no such prerequisite, and Cosby cannot be punished for failing
to comply with a legal requirement that does not exist. The proof of
Cosby’s reliance is plain on the face of the record. It is the fact that, upon
the advice and assistance of counsel, Cosby sat for four depositions and
incriminated himself, obviously a decision made after and in direct
reliance upon D.A. Castor’s decision.
27

Appendix A-120

himself years later with regard to how he endeavored to
achieve that result, but there has never been any question as
to what he intended to achieve. There can be no doubt that,
by choosing not to prosecute Cosby and then
[J-100-2020] - 69
announcing it publicly, D.A. Castor reasonably expected
Cosby to act in reliance upon his charging decision.
We cannot deem it unreasonable to rely upon the advice of
one’s attorneys. The constitutional guarantee of the effective
assistance of counsel is premised, in part, upon the
complexities that inhere in our criminal justice system. A
criminal defendant confronts a number of important
decisions that may result in severe consequences to that
defendant if, and when, they are made without a full
understanding of the intricacies and nuances of the everchanging criminal law. As Justice Black explained in
Johnson v. Zerbst, 304 U.S. 458 (1938):
[The right to counsel] embodies a realistic recognition of the
obvious truth that the average defendant does not have the
professional legal skill to protect himself when brought before

Appendix A-121

a tribunal with power to take his life or liberty, wherein the
prosecution is presented by experienced and learned counsel.
That which is simple, orderly, and necessary to the lawyer to
the untrained layman may appear intricate, complex, and
mysterious. Consistently with the wise policy of the Sixth
Amendment and other parts of our fundamental charter, this
Court has pointed to the humane policy of modern criminal
law, which now provides that a defendant, if he be poor, may
have counsel furnished [to] him by the state, not infrequently
more able than the attorney for the state.’ The right to be
heard would be, in many cases, of little avail if it did not
comprehend the right to be heard by counsel. Even the
intelligent and educated layman has small and sometimes no
skill in the science of law. If charged with crime, he is
incapable, generally, of determining for himself whether the
indictment is good or bad. He is unfamiliar with the rules of
evidence. Left without the aid of counsel he may be put on
trial without a proper charge, and convicted upon
incompetent evidence, or evidence irrelevant to the issue or
otherwise inadmissible. He lacks both the skill and
knowledge adequately to prepare his defence, even though he
[may] have a perfect one. He requires the guiding hand of
counsel at every step in the proceedings against him.
Id. at 462-63 (cleaned up). Not only was Cosby’s reliance upon
the conclusions and advice of his attorneys reasonable, it was
consistent with a core purpose of the right to counsel.
[J-100-2020] - 70
To hold otherwise would recast our understanding of
reasonableness

into

something

unrecognizable

and

unsustainable under our law. If Cosby’s reliance was

Appendix A-122

unreasonable, as found by the lower courts and as suggested
by the Commonwealth, then reasonableness would require a
defendant in a similar position to disbelieve an elected
district attorney’s public statement and to discount the
experience and wisdom of his own counsel. This notion of
reasonableness would be manifestly unjust in this context.
Defendants, judges, and the public would be forced to assume
fraud or deceit by the prosecutor. The attorney-client
relationship would be predicated upon mistrust, and the
defendant would be forced to navigate the criminal justice
process on his own, despite the substantial deficit in the
critical knowledge that is necessary in order to do so, as so
compellingly

explained

by

Justice

Black.

Such

an

understanding of reasonableness is untenable. Instead of
facilitating the right to counsel, it undermines that right. We
reject this interpretation. We find nothing unreasonable
about Cosby’s reliance upon his attorneys and upon D.A.
Castor’s public announcement of the Commonwealth’s
charging decision. The trial court alternatively suggested

Appendix A-123

that Cosby’s belief that he would never be prosecuted, thus
stripping him of his Fifth Amendment rights, based upon
little more than a press release, was unreasonable because
neither Cosby nor his attorneys demanded that the terms of
any offers or assurances by D.A. Castor be reduced to writing.
This reasoning is unpersuasive. Neither the trial court, nor
the Commonwealth for that matter, cites any legal principle
that requires a prosecutor’s assurances to be memorialized in
writing in order to warrant reasonable reliance. We decline
to construe as unreasonable the failure to do that which the
law does not require. It also has been suggested that the level
of the defendant’s sophistication is a relevant factor in
assessing whether his reliance upon a prosecutor’s decision
was
[J-100-2020] - 71
reasonable. Such a consideration is both impractical and
unfair. There is no equitable method of assessing a particular
defendant’s degree of sophistication. Any attempt would be
an arbitrary line-drawing exercise that unjustifiably would

Appendix A-124

deem some sophisticated and some not. Nor are there any
objective criteria that could be used to make that assessment
accurately. Would sophistication for such purposes be
established based upon one’s ability to hire one or more
attorneys? By the level of education attained by the
defendant? Or perhaps by the number of times the defendant
has participated in the criminal justice system? There is no
measure that could justify assessing reasonableness based
upon the so-called sophistication of the defendant. The
contours of the right to counsel do not vary based upon the
characteristics of the individual seeking to invoke it. Our
Constitutions safeguard fundamental rights equally for all.
The right to counsel applies with equal force to the
sophisticated and the unsophisticated alike. The most
experienced defendant, the wealthiest suspect, and even the
most-seasoned defense attorney are each entitled to rely upon
the advice of their counsel. Notwithstanding Cosby’s wealth,
age, number of attorneys, and media savvy, he, too, was
entitled to rely upon the advice of his counsel. No level of

Appendix A-125

sophistication can alter that fundamental constitutional
guarantee. In accordance with the advice his attorneys,
Cosby relied upon D.A. Castor’s public announcement that he
would not be prosecuted. His reliance was reasonable, and it
resulted in the deprivation of a fundamental constitutional
right when he was compelled to furnished self-incriminating
testimony.

Cosby

reasonably

relied

upon

the

Commonwealth’s decision for approximately ten years. When
he announced his declination decision on behalf of the
Commonwealth, District Attorney Castor knew that Cosby
would be forced to testify based upon the Commonwealth’s
assurances. Knowing that he induced Cosby’s reliance, and
that his decision not to prosecute was designed to
[J-100-2020] - 72
do just that, D.A. Castor made no attempt in 2005 or in any
of the ten years that followed to remedy any misperception or
to stop Cosby from openly and detrimentally relying upon
that decision. In light of these circumstances, the subsequent
decision by successor D.A.s to prosecute Cosby violated

Appendix A-126

Cosby’s due process rights. No other conclusion comports
with the principles of due process and fundamental fairness
to which all aspects of our criminal justice system must
adhere. 28
Having identified a due process violation here, we must
ascertain the remedy to which Cosby is entitled. We note at
the outset that specific performance does not automatically
apply in these circumstances. As a general rule, specific
performance is reserved for remedying an injured party to a
fully consummated agreement, such as an agreed-upon and
executed plea bargain. Commonwealth v. Spence, 627 A.2d
1176, 1184 (Pa. 1993). “‘Specific performance’ is a traditional
contract remedy that is available when monetary damages
are inadequate.” Martinez, 147 A.3d at 532 (citing BLACK’S
LAW DICTIONARY 1425 (8th ed. 2004) (defining “specific
performance” as, inter alia, “a courtordered remedy that

See Khan v. State Bd. of Auctioneer Exam'rs, 842 A.2d 936, 946 (Pa.
2004) (“Substantive due process is the esoteric concept interwoven within
our judicial
framework to guarantee fundamental fairness and
substantial justice . . . .”) (cleaned up).

28

Appendix A-127

requires precise fulfillment of a legal or contractual obligation
when monetary damages are inappropriate or inadequate”)).
This does not mean that specific performance is unavailable
entirely. It only means that the remedy does not naturally
flow to someone under these circumstances as an automatic
consequence of contract law. Specific performance is awarded
only when equity and fundamental fairness command it. See
Scotland, at 614 F.2d at 365 (stating that, if “the defendant
detrimentally relies on the government’s promise, the
resulting harm from this induced reliance implicates due
process guarantees”); see also Commonwealth v. Mebane, 58
A.3d 1243 (Pa. Super. 2012) (upholding trial court ruling that
fundamental
[J-100-2020] - 73
fairness required enforcement of the prosecution’s plea offer
that was later withdrawn, where the defendant detrimentally
relied upon the offer); Commonwealth v. McSorley, 485 A.2d
15, 20 (Pa. Super. 1984), aff'd, 506 A.2d 895 (Pa. 1986) (per
curiam) (enforcing an incomplete agreement based upon

Appendix A-128

detrimental reliance). As noted earlier, the principle of
fundamental fairness, as embodied in our Constitutions,
requires courts to examine whether the challenged “conduct
offends some principle of justice so rooted in the traditions
and conscience of our people as to be ranked as fundamental
and that defines the community’s sense of fair play and
decency.” Kratsas, 764 A.2d at 27.

In our view, specific

performance of D.A. Castor’s decision, in the form of barring
Cosby’s prosecution for the incident involving Constand, is
the only remedy that comports with society’s reasonable
expectations of its elected prosecutors and our criminal
justice system. It bears repeating that D.A. Castor intended
his charging decision to induce the waiver of Cosby’s
fundamental

constitutional

right,

which

is

why

the

prosecutor rendered his decision in a very public manner.
Cosby reasonably relied to his detriment upon that decadeold decision when he declined to attempt to avail himself of
his privilege against compulsory self-incrimination and when
he provided Constand’s civil attorneys with inculpatory

Appendix A-129

statements.

Under

these

circumstances,

neither

our

principles of justice, nor society’s expectations, nor our sense
of fair play and decency, can tolerate anything short of
compelling the Montgomery County District Attorney’s Office
to stand by the decision of its former elected head. In
Stipetich, we briefly contemplated a remedy for the breach of
a defective nonprosecution agreement. In that case, Stipetich
agreed with the police that, if he revealed his source for
obtaining drugs, no charges would be filed against him or his
wife. Stipetich, 652 A.2d at 1294-95. Even though Stipetich
fulfilled his end of the bargain, charges still were filed against
him and his wife. Id. at 1295. The Stipetiches sought
[J-100-2020] - 74
enforcement of the non-prosecution agreement with the
police. This Court found that the non-prosecution agreement
was invalid, because the police did not have the authority to
make it. Only a prosecutor holds that power. Id. We
recognized that what befell the Stipetiches may have been
“fundamentally unfair,” particularly if their discussions with

Appendix A-130

the police produced additional evidence of criminality,
including possibly self-incriminating statements. Id. at 1296.
In dicta, we suggested that the remedy might be to suppress
the evidence or statements that were obtained after the police
purported to bind the Commonwealth in a non-prosecution
agreement. Id. This remedy is insufficient here, for a number
of reasons. First, as noted, the remedy statement was dicta,
and

is

not

the

law

in

Pennsylvania.

Second,

the

circumstances that led to the suggestion of that remedy are
markedly different than those that occurred in the present
case. In Stipetich, the agreement was formulated with
arresting officers, who lacked the authority to make the
promise not to prosecute. Here, conversely, the nonprosecution decision was made by the elected District
Attorney

of

Montgomery

County,

whose

public

announcement of that decision was fully within his authority,
and was objectively worthy of reasonable reliance. Finally, a
one-size-fits

all

remedy

does

not

comport

with

the

individualized due process inquiry that must be undertaken.

Appendix A-131

As outlined above, a court must ascertain, contemplating the
individual circumstances of each case, the remedy that
accords with the due process of law. In some instances,
suppression of evidence may be an adequate remedy; in
others, only specific enforcement will suffice.
Here, only full enforcement of the decision not to prosecute
can satisfy the fundamental demands of due process. See
Rowe, 676 F.2d at 528 (explaining that, when a promise
induces a defendant to waive his Fifth Amendment rights by
testifying or
[J-100-2020] - 75
otherwise cooperating with the government to his detriment,
due process requires that the prosecutor’s promise be
fulfilled). In light of the extent and duration of Cosby’s
reliance, induced as intended by then-District Attorney
Castor, no other remedy will do. Anything less under these
circumstances would permit the Commonwealth to extract
incriminating evidence from a defendant who relies upon the
elected prosecutor’s words, actions, and intent, and then use

Appendix A-132

that evidence against that defendant with impunity. The
circumstances before us here are rare, if not entirely unique.
While this controversy shares some features of earlier cases
that contemplate the constitutional role of prosecutors, that
import contract principles into the criminal law, and that
address the binding nature of prosecutorial promises in plea
agreements and in other situations—as well as breaches of
those promises—there are no precedents directly on point
that would make the remedy question an easy one. As the
concurring and dissenting opinion (“CDO”) observes, the
circumstances of this case present a “constellation of . . .
unusual conditions.” 29 It is not at all surprising, then, that a
reasonable disagreement arises regarding the remedy that
must be afforded for what we and the CDO agree was a
violation of Cosby’s due process rights. In our respectful
judgment, the CDO’s proposed remedy, a third criminal trial
of Cosby—albeit one without his deposition testimony—falls
short of the relief necessary to remedy the constitutional
29

See CDO at 4.

Appendix A-133

violation. Specific performance is rarely warranted and
should be imposed only when fairness and equity demand it.
As the CDO notes, such a remedy generally should be
afforded only under “drastic circumstances where the
defendant detrimentally relies on an inducement and cannot
be returned to the status quo ante.” 30
[J-100-2020] - 76
Our disagreement with the CDO arises concerning its view
that mere suppression of Cosby’s deposition testimony will
remedy his constitutional harm and “fully” restore him to
where he stood before he detrimentally relied upon D.A.
Castor’s inducement. 31 This perspective understates the
gravity of Cosby’s harm in this case, and suppression alone is
insufficient to provide a full remedy of the consequences of
the due process violation. The CDO would limit our
assessment of the

harm suffered by Cosby to the

Commonwealth’s use of the deposition testimony at his two

30
31

Id. at 9.
Id. at 5.

Appendix A-134

trials. But the harm is far greater than that, and it began long
before even the first trial. It must be remembered that D.A.
Castor’s decision not to prosecute Cosby, and to announce
that decision orally and in a written press release, was not
designed to facilitate the use of testimony against Cosby in a
future criminal trial. Instead, D.A. Castor induced Cosby’s
forfeiture of his Fifth Amendment rights as a mechanism and
a lever to aid Constand’s civil action and to improve the
chances that she would receive at least a monetary benefit for
the abuse that she suffered, given that D.A. Castor had
determined that Constand would not, and could not, get relief
in a criminal trial. Through his deliberate efforts, D.A. Castor
effectively forced Cosby to participate against himself in a
civil case in a way that Cosby would not have been required
to do had he retained his constitutional privilege against self
incrimination.

To

say

the

least,

this

development

significantly weakened Cosby’s legal position. Cosby was
compelled to give inculpatory evidence that led ultimately to
a multimillion-dollar settlement. The end result was exactly

Appendix A-135

what D.A. Castor intended: Cosby gave up his rights, and
Constand received significant financial relief. Under these
circumstances, where our equitable objective in remedying a
due process violation is to restore an aggrieved party to the
status he held prior to that violation, exclusion of the
deposition testimony from a third criminal trial, and nothing
[J-100-2020] - 77
more, falls short of what our law demands. Though this
appeal emanates from Cosby’s criminal convictions, we
cannot ignore the true breadth of the due process violation.
The deprivation includes the fact that D.A. Castor’s actions
handicapped Cosby in the derivative civil suit. Nor can we
ignore the fact that weakening Cosby’s position in that civil
case was precisely why D.A. Castor proceeded as he did.
Suppression of evidence in a third criminal trial can never
restore Cosby to the position he held before he forfeited his
Fifth Amendment rights. The consequences of D.A. Castor’s
actions include the civil

matter, and no exclusion of

deposition testimony can restore Cosby’s injuries in that

Appendix A-136

regard. It was not only the deposition testimony that harmed
Cosby. As a practical matter, the moment that Cosby was
charged criminally, he was harmed: all that he had forfeited
earlier, and the consequences of that forfeiture in the civil
case, were for naught. This was, as the CDO itself
characterizes it, an unconstitutional “coercive bait-andswitch.” 32
It is the true and full breadth of the consequences of the due
process violation that separates this case from the cases
relied upon by the CDO, including Stipetich. 33 Each of those
prosecutions involved defective or unenforceable promises
that resulted in suppression remedies. Critically, none of
them featured the additional harm inflicted in this case. In
none of those cases did the effects of the constitutional
violation extend to matters beyond the criminal trial, as was

Id. at 1.
See CDO at 6-8 (citing Stipetich, Commonwealth v. Peters, 373 A.2d
1055 (Pa.1977); Commonwealth v. Parker, 611 A.2d 199 (Pa. 1922); People
v. Gallego, 424 N.W.2d 470 (Mich. 1988); and United States v. Blue, 384
U.S. 251 (1966)).
32

33

Appendix A-137

the circumstance here. Accordingly, none of those cases
support, much less compel, the limited remedy that the CDO
proffers. The impact of the due process violation here is vast.
The remedy must match that impact. Starting with D.A.
Castor’s inducement, Cosby gave up a fundamental
[J-100-2020] - 78
constitutional right, was compelled to participate in a civil
case after losing that right, testified against his own
interests, weakened his position there and ultimately settled
the case for a large sum of money, was tried twice in criminal
court, was convicted, and has served several years in prison.
All of this started with D.A. Castor’s compulsion of Cosby’s
reliance upon a public proclamation that Cosby would not be
prosecuted. The CDO’s remedy for all of this would include
subjecting Cosby to a third criminal trial. That is no remedy
at all. Rather, it is an approach that would place Cosby
nowhere near where he was before the due process violation
took root. There is only one remedy that can completely
restore Cosby to the status quo ante. He must be discharged,

Appendix A-138

and any future prosecution on these particular charges must
be barred. We do not dispute that this remedy is both severe
and rare. But it is warranted here, indeed compelled. The
CDO would shun this remedy because (at least in part) it
might thwart the “public interest in having the guilty brought
to book.” 34 It cannot be gainsaid that society holds a strong
interest in the prosecution of crimes. It is also true that no
such interest, however important, ever can eclipse society’s
interest in ensuring that the constitutional rights of the
people are vindicated. Society’s interest in prosecution does
not displace the remedy due to constitutionally aggrieved
persons.
IV. Conclusion
We do not question the discretion that is vested in prosecutors
“over whether charges should be brought in any given case.”
Stipetich, 652 A.2d at 1295. We will not

undermine a

prosecutor’s “general and widely recognized power to conduct
criminal litigation and prosecutions on behalf of the
34

See CDO (quoting Blue, 384 U.S. at 255).

Appendix A-139

Commonwealth, and to decide whether and when to
prosecute, and whether and when to continue or discontinue
a case.” Id. (quoting
[J-100-2020] - 79
Commonwealth v. DiPasquale, 246 A.2d 430, 432 (Pa. 1968)).
The decision to charge, or not to charge, a defendant can be
conditioned, modified, or revoked at the discretion of the
prosecutor.
However, the discretion vested in our Commonwealth’s
prosecutors, however vast, does not mean that its exercise is
free of the constraints of due process. When an unconditional
charging decision is made publicly and with the intent to
induce action and reliance by the defendant, and when the
defendant does so to his detriment (and in some instances
upon the advice of counsel), denying the defendant the benefit
of that decision is an affront to fundamental fairness,
particularly when it results in a criminal prosecution that
was foregone for more than a decade. No mere changing of
the guard strips that circumstance of its inequity. See, e.g.,

Appendix A-140

State v. Myers, 513 S.E.2d 676, 682 n.1 (W.Va. 1998)
(explaining that “any change in the duly elected prosecutor
does not affect the standard of responsibility for the office”).
A contrary result would be patently untenable. It would
violate long-cherished principles of fundamental fairness. It
would be antithetical to, and corrosive of, the integrity and
functionality of the criminal justice system that we
strive to maintain. For these reasons, Cosby’s convictions and
judgment of sentence are vacated, and he is discharged. 35

Justices Todd, Donohue and Mundy join the opinion.
Justice Dougherty files a concurring and dissenting opinion
in which Chief Justice Baer joins.
Justice Saylor files a dissenting opinion.

35

Accordingly, we do not address Cosby’s other issue.

